<html>
<title> - EXAMINING PRESERVATION OF STATE DEPARTMENT FEDERAL RECORDS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










       EXAMINING PRESERVATION OF STATE DEPARTMENT FEDERAL RECORDS

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                  SEPTEMBER 13 AND SEPTEMBER 22, 2016

                               __________

                           Serial No. 114-161

                               __________

Printed for the use of the Committee on Oversight and Government Reform






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-120 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                        
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
THOMAS MASSIE, Kentucky              BRENDA L. LAWRENCE, Michigan
MARK MEADOWS, North Carolina         TED LIEU, California
RON DeSANTIS, Florida                BONNIE WATSON COLEMAN, New Jersey
MICK MULVANEY, South Carolina        STACEY E. PLASKETT, Virgin Islands
KEN BUCK, Colorado                   MARK DeSAULNIER, California
MARK WALKER, North Carolina          BRENDAN F. BOYLE, Pennsylvania
ROD BLUM, Iowa                       PETER WELCH, Vermont
JODY B. HICE, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
STEVE RUSSELL, Oklahoma
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                    Andrew Dockham, General Counsel
                    Tristan Leavitt, Senior Counsel
                      Liam McKenna, Senior Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 13, 2016...............................     1

                               WITNESSES

Mr. Bryan Pagliano, reflected in the record as not present
Mr. Justin Cooper
    Oral Statement...............................................    10
Mr. Bill Thornton, Platte River Networks
    Oral Statement...............................................    10
Mr. Paul Combetta, Platte River Networks
    Oral Statement...............................................    10

Hearing Continuation held on September 22, 2016..................    53

                                APPENDIX

Letter of September 21, 2016, from Mr. MacDougall representing 
  Mr. Pagliano submitted by Mr. Cummings.........................    55

 
       EXAMINING PRESERVATION OF STATE DEPARTMENT FEDERAL RECORDS

                              ----------                              


                      Tuesday, September 13, 2016

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:01 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Turner, Duncan, 
Jordan, Walberg, Amash, Gosar, Gowdy, Farenthold, Lummis, 
Massie, Meadows, DeSantis, Mulvaney, Buck, Walker, Blum, Hice, 
Russell, Carter, Grothman, Hurd, Palmer, Cummings, Maloney, 
Norton, Lynch, Cooper, Kelly, Lieu, DeSaulnier, Welch, and 
Lujan Grisham.
    Also Present: Representative Smith of Texas.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order and without objection the 
chair is authorized to declare a recess at any time.
    This is a very important hearing that we are having, 
examining the preservation of State Department Federal records. 
As we know now, Hillary Clinton, as Secretary of State for 
nearly 4 years, or roughly 4 years, helped create one of what 
is reported to be one of the biggest security breaches in the 
history of the State Department. It is an absolute mess. We 
have witnesses here that are vital to our understanding of the 
problem, how we got into this mess and how we are potentially 
going to clean it up.
    Joining us will be Mr. Justin Cooper, a former employee of 
President Bill Clinton and the Clinton Foundation. Mr. Cooper 
purchased the first server used by Secretary Clinton and had it 
installed in the basement of her private residence in 
Chappaqua, New York. He also registered the email domain, 
clintonemail.com in 2009 on the same day that Secretary 
Clinton's confirmation hearings began in the United States 
Senate.
    Mr. Cooper has described his role in managing Secretary 
Clinton's private server as the quote, ``customer service 
face,'' end quote. He explained to the FBI he helped Secretary 
Clinton set up her mobile devices, and when she finished with 
them, he would break them in half or destroy them with a 
hammer.
    Interesting, Mr. Cooper was never employed by the State 
Department while he managed the server she used to conduct the 
business of the government.
    When Mr. Cooper needed upgrading to the server for a better 
service. He turned to Mr. Bryan Pagliano. Mr. Pagliano had 
worked for Secretary Clinton's 2008 Presidential campaign and 
was in the process of closing out the campaign's IT assets when 
Mr. Cooper called to discuss a new server for the Secretary. To 
put that new server together, Mr. Pagliano used one from her 
campaign. Anything else he needed was evidently bought off-the-
shelf. And then in March of 2009, Mr. Pagliano and Mr. Cooper 
met in the Clinton's home in Chappaqua, New York, and installed 
the new server, reportedly in the basement. Unlike Mr. Cooper, 
Mr. Pagliano then went on to become a State Department 
employee.
    Just a few months after installing the server, Mr. Pagliano 
was hired at the State Department as a GS-15 Schedule C. Public 
reports suggest Mr. Pagliano received a State Department check, 
and he was paid by the Clintons, none of which he reported on 
his public disclosure forms as required. In a recent Office of 
Inspector General report, Mr. Pagliano's supervisors at the 
State Department, quote, ``questioned whether he could support 
a private client during work hours given his capacity as a 
full-time government employee,'' end quote. Mr. Pagliano left 
the State Department in February of 2013, just as Hillary 
Clinton, Secretary Clinton left.
    When responsibility for the server is turned over--when 
left--when the responsibility for the server is turned over to 
our next two witnesses, things started to get a little bit more 
complicated. Mr. Bill Thornton and Mr. Paul Combetta both 
worked for Platte River Networks. Platte River was hired by 
Secretary Clinton in early 2013 to host the email server after 
Mr. Pagliano had been working on it. PRN, or Platte River 
Networks, migrated Secretary Clinton's emails on the Pagliano-
managed server to its own server, which was located at a data 
center in Secaucus, New Jersey. Things with Platte River 
Networks get complicated in March of 2015 according to the FBI 
report.
    In early March 2015, The New York Times revealed Secretary 
Clinton used a private email account while at the State 
Department. The House Select Committee on Benghazi sends both a 
preservation request and a subpoena following the news. 
According to the FBI report, that preservation request is 
forwarded to PRN or Platte River Networks by Cheryl Mills, the 
former Secretary Clinton's chief of staff and current attorney.
    In his first interview with the FBI, evidently, Mr. 
Combetta had no memory of that request. In a subsequent 
interview, he not only remembered the request, but stated he 
understood it meant not to delete any of Secretary Clinton's 
emails. Then around the end of March, a number of things 
happened. There's a conference call between Platte River 
Networks, Cheryl Mills and David Kendall, another one of 
Secretary Clinton's private attorneys. Then once again, Mr. 
Combetta's story changes.
    In his first FBI interview, he says he deleted no emails of 
Secretary Clinton around that time, but later on, he states he 
not only deleted the archive of Secretary Clinton's email on 
the server, but also used a product called BleachBit to delete 
her PST files on the server. At the same time, a number of 
manual deletions were made on the backups of that Platte River 
Networks server.
    We appreciate the witnesses that are here today and we hope 
they can illuminate the situation, allow us to better 
understand it. Because, as I said before, this is one of the 
biggest breaches of security in the history of the State 
Department. We have a duty and an obligation to investigate it. 
I now recognize the ranking member, Mr. Cummings, for his 
opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. Today is 
our third, third emergency hearing about Secretary Clinton's 
emails in 4 business days; third in 4 days. Emergency. I 
believe this committee is abusing taxpayer dollars and the 
authority of Congress in an astonishing onslaught of political 
attacks to damage Secretary Clinton's campaign for President of 
the United States of America.
    This is the first time in my 20 years in Congress that I 
personally witnessed the oversight power of this committee 
abuse in such a transparently political manner to directly 
influence a Presidential campaign.
    The point of today's hearing is to investigate baseless 
Republican accusations that Secretary Clinton or her aides 
ordered the destruction of emails to conceal them from 
investigators. The most important fact for today's hearing is 
that the FBI already investigated these accusations and 
thoroughly debunked them. They interviewed witnesses, examined 
forensic evidence and concluded that these accusations have no 
merit. FBI Director Comey stated, and I quote, ``We found no 
evidence that any of the additional work-related emails were 
intentionally deleted in an effort to conceal them,'' end of 
quote.
    He went on to say that, quote, ``We did not find any 
evidence of evil intent,'' and intent to--``or intent to 
obstruct justice.''
    Now, that's the FBI Director, the man who had been a 
lifelong Republican, a man who was applauded by the Republicans 
as one of the most honorable public servants that ever existed. 
So he went on and he emphasized in a memo to staff just last 
week, and I quote, ``The case itself was not a cliffhanger,'' 
end of quote. Of course, the Republicans did not like the 
answers that the FBI Director gave. So they simply manufactured 
today's hearing out of thin air. This entire hearing is a 
contrived campaign photo op.
    Here is the playbook the Republicans are using. Step one, 
publicly accuse the witnesses of criminal activity no matter 
how ludicrous, and then refer them to U.S. Attorneys' Office 
for criminal investigation. That's step one.
    Step two, the next day, invite these same witnesses to an 
emergency hearing on those criminal accusations and then rush 
to issue a flurry of unilateral subpoenas demanding that they 
testify. No debate, no vote.
    Step three, express false outrage when these witnesses--
this is the playbook--express false outrage when these 
witnesses who you just accused of criminal activity take advice 
from their counsel to assert their Fifth Amendment right not to 
testify. There you have it. Presto, instant photo op.
    That is what happened to Mr. Combetta and Mr. Thornton 
despite the fact that a team of career law enforcement agents 
at the FBI just unanimously recommended against bringing any 
criminal charges in this case.
    Keep in mind that Director Comey said that this was an all-
star group of FBI agents, an all-star group of FBI agents said 
unanimously that these gentlemen should not be charged.
    Then there's Bryan Pagliano, the IT specialist who worked 
on Secretary Clinton's email system. Mr. Pagliano has already 
been interviewed by the FBI and the FBI provided us with the 
results of his interview. But the Republicans disagree with the 
FBI's conclusions. So here we are. Mr. Pagliano has already 
asserted his Fifth Amendment rights before this Congress. He 
did this when Chairman Gowdy issued his own unilateral subpoena 
to force him to appear before the Benghazi Committee on the 
same issue. Of course, I sat as the ranking member on that 
select committee.
    Obviously, Mr. Pagliano was concerned about the criminal 
accusations that Republicans are making--were making, so his 
attorney advised him to assert the Fifth Amendment. There's no 
legitimate reason for Republicans to force Mr. Pagliano to 
appear yet again before Congress just to assert his Fifth 
Amendment rights one more time. How many times will Republicans 
do this? Will they force him to take the Fifth in front of the 
Science Committee next? How about the Homeland Security or 
Intelligence Committee? Should we have them go to those 
committees too? This is an absolute abuse of authority.
    Now, Chairman Gowdy and I disagree about many things, but I 
give him full credit for one thing that he did. At least when 
he subpoenaed Mr. Pagliano, he did it in a private session. He 
did not force Mr. Pagliano to assert the Fifth and probably 
just to humiliate him, and I respect Mr. Gowdy for that.
    Let me say this as plainly as I can. If this committee's 
goal were just to get Mr. Pagliano or other witnesses on the 
record asserting their Fifth Amendment rights, we could do that 
easily in a private session just like Mr. Gowdy did with Mr. 
Pagliano a year ago. There's no legitimate reason to force Mr. 
Pagliano or the other witnesses who were subpoenaed for this 
hearing to assert the Fifth in open session. There's only an 
illegitimate reason, to get a photo op that Republicans think 
could harm Secretary Clinton's Presidential campaign.
    Finally, some may argue that Mr. Pagliano, or Mr. Combetta 
should testify before us because they received limited use of 
immunity for their statements to the FBI. But no lawyers worth 
their salt are going to let their clients testify before a 
congressional committee whose chairman just sent another 
referral for criminal prosecution, no matter how frivolous 
accusations are. They are just not going to do it. Pursuing 
these kinds of blatantly political attacks undermines the 
integrity of our committee, the congressional process, and the 
constitutional rights that are supposed to protect our citizens 
against unsubstantiated accusations just like these.
    And so with that, Mr. Chairman, I yield back and I thank 
you.
    Chairman Chaffetz. We will hold the record open for 5 
legislative days for any members who would like to submit a 
written statement. I would also ask unanimous consent to allow 
Lamar Smith, the chairman of Science, Space, and Technology 
Committee, to join our committee and would be happy to also 
entertain a request for a UC from the Democratic side if they 
would like to join us as well.
    Without objection, so ordered to allow Mr. Smith to join us 
today.
    We would now like to recognize our witnesses. I do note the 
absence of Mr. Pagliano. Let me address that.
    Let the record reflect that Mr. Pagliano is not present at 
the witness table. The committee invited Mr. Pagliano to 
testify at the hearing in a letter dated September 7, 2016. Mr. 
Pagliano informed the committee through his attorneys that he 
might assert his Fifth Amendment privilege. And I authorized a 
subpoena for Mr. Pagliano's testimony. On September 8, 2016, 
the committee transmitted a subpoena to Mr. Pagliano's attorney 
and the subpoena required his presence here today.
    Mr. Pagliano is uniquely qualified to provide testimony 
that will help the committee better understand Secretary 
Clinton's use of a private email server during her tenure as 
Secretary at the State Department among other things. The 
committee invited him to appear with the expectation that his 
testimony will advance the committee's investigation, which 
seeks further information about the setup and management of 
Secretary Clinton's account and other technical aspects of the 
account.
    I take my responsibility as the committee chairman 
seriously, especially the decision to issue a subpoena. It is a 
serious matter and Mr. Pagliano has chosen to evade a subpoena 
duly issued by a committee of the United States House of 
Representatives. I will consult with counsel and my colleagues 
on the committee to consider a full range of options available 
to address Mr. Pagliano's failure to appear. It is vital to 
hear from us, because it is our understanding that while Mr. 
Pagliano worked in the IT department at the State Department 
for nearly 4 years, virtually every single email that Mr. 
Pagliano had has suddenly disappeared. There's something like 
less than 20 emails--this is the guy who worked in the IT 
department at the State Department. #thingsthatmakeyougohmm. 
Really? All of his emails have suddenly disappeared.
    Mr. Pagliano is also important because he was receiving a 
paycheck from the Clintons, but failed to disclose that on his 
financial forms. We would like to give him an opportunity to 
answer that question.
    We also believe that he entered into an immunity agreement. 
You'd think somebody would sing like a songbird if you got 
immunity from the FBI. What are you afraid of? We wanted to 
hear from him. That's why we issued a subpoena. There are a 
number of things we would like to ask him and he should be 
here. When you are served a subpoena from the United States 
Congress, it is not optional. That is not an optional activity, 
and he is not here today.
    Mr. Cummings. Mr. Chairman.
    Chairman Chaffetz. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. Last 
night--well, let's make sure that we have a complete picture 
here. Last night the chairman sent another letter to Mr. 
Pagliano saying that our committee might go into executive 
session to accept his Fifth Amendment assertion.
    Chairman Chaffetz. No, I did not say that.
    Mr. Cummings. Well, what did you say?
    Chairman Chaffetz. I want this committee to be open and 
transparent. We do things as everything we can possibly do out 
in the open. That is the American way. That's the way this 
committee is going to be run.
    Mr. Cummings. Will the chairman yield?
    Chairman Chaffetz. Yes, sir.
    Mr. Cummings. It's my understanding that Mr. Pagliano, his 
lawyers sent a letter saying that they felt that this was 
abusive process, and nothing but to embarrass him. And he said 
that if you wanted to go into executive session to give him 
immunity, he'd be happy to appear. I just want the committee to 
have the full rep of what happened here. He said would be happy 
to appear. And so is there--so I take it that the consultation 
that you are going to do is going to go into whether or not we 
are going to give him immunity, whether or not we are going to 
go into executive session, and when do we expect those 
decisions?
    Chairman Chaffetz. Well, he made the decision not to be 
here and there are consequences for that. Okay. This is, again, 
the integrity of the House of Representatives. This is not an 
optional activity. You don't just get to say, hey, well, you 
know, I decided not to do that. So we will look at the full 
range of options, but if anybody is under any illusion that I'm 
going to let go of this and just let it sail off into the 
sunset, they are very ill-advised.
    Mr. Cummings. Will the chairman yield?
    Chairman Chaffetz. Yes.
    Mr. Cummings. Looking at your letter dated September 12, 
2016, to Mark J. MacDougall. You say here in the letter, and I 
quote, ``The committee requires Mr. Pagliano's appearance 
because, among other reasons, the possibility that he will 
waive or choose not to assert the privilege as to some or all 
questions, the possibility that the committee will agree to 
hear his testimony in executive session and the possibility 
that the committee will immunize his testimony pursuant to 18 
U.S.C. Section 6005.''
    That's what I was inquiring about, Mr. Chairman. That's 
your letter.
    Chairman Chaffetz. And to clarify----
    Mr. Cummings. Yeah.
    Chairman Chaffetz. --it requires his presence to have those 
types of discussions. So when he doesn't show up, that option 
is off the table. It's--you have to be here to have that 
discussion.
    Mr. Mica. Mr. Chairman. Just a point of parliamentary 
inquiry. You said that it is not an option for the witness 
who's refused to testify. He was duly presented and served with 
a subpoena from this committee. Is that correct?
    Chairman Chaffetz. Yes.
    Mr. Mica. And one of the options would be possible contempt 
of Congress, among the options that we have available. And at 
what point would that be appropriate to consider the options, 
in a future hearing or a request to the chair?
    Chairman Chaffetz. We will consider all options. I would 
like to continue on with this hearing, given the three 
witnesses that are here. They are here, and rather than unduly 
delay the rest of this hearing dealing with Mr. Pagliano, we 
will complete this hearing and then look at the options.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Cummings. Just one thing, Mr. Chairman. Are we going to 
do that after the hearing? What you just said you were going to 
do?
    Chairman Chaffetz. We are going to consider the options 
given that Mr. Pagliano is not in attendance after he was 
issued a subpoena. We will deal with that after the conclusion.
    Mr. Cummings. And one of those things that we might 
consider is going into executive session since Mr. Pagliano 
said he would be happy to come in executive session. Would that 
be one of the things?
    Chairman Chaffetz. I will entertain all of the potential 
requests. But I'm telling you, I have no intention of going 
into executive session when he thumbs his nose at the United 
States Congress, wastes this committee's time, U.S. marshals 
having to serve subpoenas and for him not to show. That is just 
not acceptable.
    Mr. Lynch. Mr. Chairman, on a point of order.
    Chairman Chaffetz. Yes.
    Mr. Lynch. I just want to understand this as well as I can.
    Did the chairman issue a criminal referral on Mr. Pagliano?
    Chairman Chaffetz. We--when we heard that the FBI had not 
looked at anything that that Secretary Clinton had testified 
under oath before Congress, we did give a referral.
    Mr. Lynch. Okay. And that's outstanding? Right? I mean, 
we----
    Chairman Chaffetz. We don't know. We don't know.
    Mr. Lynch. Well, you issued it.
    Chairman Chaffetz. We issued it, but we don't know----
    Mr. Lynch. Here's my point. Here's my point. You issued a 
criminal referral for an individual, and then you ask him to 
come in here and testify before Congress. That is--that is----
    Chairman Chaffetz. Let me clarify.
    Mr. Lynch. This would require him to surrender his Fifth 
Amendment rights, if he's--you're referring him and putting him 
under threat of criminal prosecution and then asking him to 
come in here. That's not fair. And the immunity doesn't cover 
him, because your referral for criminal prosecution came after 
the fact and beyond the limited purpose for which he was 
granted immunity, sir.
    Chairman Chaffetz. There's no criminal referral on Mr. 
Pagliano. Did we refer the comments and the issues that Mr. 
Comey as the Director of the FBI brought up? Absolutely, we 
did.
    Mr. Lynch. Right. Which he said----
    Chairman Chaffetz. He said he required--he required us to 
send that.
    Mr. Lynch. But it puts him at risk. What we have done as a 
committee and through you on this referral, is put him under 
threat of criminal prosecution because of the issue that you're 
investigating. I understand that. I understand that. But it 
puts him in jeopardy coming before this committee while that 
criminal referral is in existence. And I'm just saying, he's an 
American citizen. I know the Constitution gets in the way of 
this committee sometimes lately.
    Chairman Chaffetz. If the gentleman will suspend. The 
gentleman will suspend.
    Mr. Lynch. The gentleman will yield.
    Chairman Chaffetz. The--to clarify, the referral was to 
look at Secretary Clinton's testimony before Congress. That was 
the referral. Mr. Pagliano, his attendance is required here. 
There was interaction with Mr. Pagliano with another committee, 
but that's another committee. You have to bring that up with 
the other committee. I'm concerned about the integrity of this 
committee. I think we have done the right thing here. His 
attendance is required here today. He is not here and we will 
deal with that afterwards.
    We do have Mr. Combetta here.
    Mr. Gowdy. Mr. Chairman.
    Chairman Chaffetz. We do have Mr. Thornton here and we do 
have Mr. Cooper here.
    Mr. Gowdy. Mr. Chairman.
    Chairman Chaffetz. The gentleman from South Carolina.
    Mr. Gowdy. Could I engage with the chair in a colloquy?
    Chairman Chaffetz. Yes.
    Mr. Gowdy. I thought witness Pagliano was granted immunity.
    Chairman Chaffetz. That's what I have read.
    Mr. Gowdy. Well, Congress can't prosecute anyone. So the 
one entity who can has granted him immunity. I'm trying to 
figure out what his criminal liability is?
    Mr. Lynch. If the gentleman would yield?
    Mr. Gowdy. Well, I was having a colloquy with the chair.
    Mr. Lynch. I understand that, but I have----
    Mr. Gowdy. But if you can answer the question, I will be 
happy to hear from you.
    Mr. Lynch. The FBI granted him limited immunity for the 
purpose of----
    Mr. Gowdy. The FBI didn't grant him immunity. The 
Department of Justice granted him immunity.
    Mr. Lynch. That's correct. That's correct, for that limited 
purpose.
    Mr. Gowdy. How do you know it was limited use immunity? I 
haven't seen the immunity agreement.
    Chairman Chaffetz. Let me also inject here.
    Mr. Gowdy. No, I have great respect for Mr. Lynch. I have 
asked what kind of----
    Mr. Lynch. His attorney, his attorney, Mr. Pagliano's 
attorney, says in his letter that he was given limited immunity 
for that purpose.
    Mr. Gowdy. Well, that raises another interesting question 
that I hope the gentleman from Massachusetts will help me 
figure out, which is, when you have reached an agreement with 
the government, oftentimes it includes cooperation with other 
entities within that same government. So I wonder whether the 
Department of Justice and their proffer or immunity agreement 
with Mr. Pagliano made it clear that he needed to cooperate 
with another branch of government? We can't prosecute anyone. 
Only the Department of Justice can. And they have made it, 
frankly, crystal clear, they are not prosecuting anyone in this 
fact pattern. So where's the criminal liability?
    Mr. Lynch. The gentleman has constitutional rights under 
the Fifth Amendment. Whether they are violated by the FBI, or 
violated here in Congress----
    Mr. Gowdy. Well, but----
    Mr. Lynch. --they are still violated.
    Mr. Gowdy. Well, as the gentleman from Massachusetts knows, 
the Fifth Amendment----
    Mr. Lynch. He cannot be required to be a witness against 
himself.
    Mr. Gowdy. Right, but the Fifth Amendment doesn't protect 
you from non-incriminating answers.
    Mr. Lynch. Well, we have got a criminal referral here.
    Mr. Gowdy. Not on him. He can say his name.
    Mr. Lynch. Sure it is. Sure it is.
    Mr. Gowdy. He can say where he works. Every answer doesn't 
incriminate you.
    Mr. Lynch. It was issued after----
    Chairman Chaffetz. The gentleman from Massachusetts will 
suspend. The gentleman from South Carolina, it is his time.
    Mr. Gowdy. I was just inquiring of the chair. I thought 
there an immunity agreement in place between the Department of 
Justice and this witness. So if he has been immunized, and you 
can't prosecute anyone for anything, where is the criminal 
liability to him coming and answering questions, which further 
assumes that every question you ask is going to expose him to 
criminal liability? There is no Fifth Amendment privilege 
against answering non-incriminating questions.
    Mr. Lynch. Will the gentleman yield?
    Mr. Gowdy. Sure.
    Mr. Lynch. But he can incriminate himself because we have 
issued, you know, a criminal referral here.
    Mr. Gowdy. He has got immunity.
    Mr. Lynch. He doesn't have immunity. He doesn't have 
immunity. He doesn't have immunity.
    Mr. Gowdy. You haven't seen the immunity agreement.
    Mr. Lynch. I'll answer this--look it, if you want to read 
it yourself, it's from the gentleman's attorney. He says he has 
got limited immunity.
    Mr. Gowdy. Well, I'm going to need a more reliable source 
than a criminal defense attorney. I want to read the agreement 
itself. I want to read the agreement between the Department of 
Justice and this witness, and whether or not that agreement 
requires this witness to cooperate with other entities of 
government. That is commonplace. For them to say you can tell 
us the truth, but you can't tell Congress, makes no sense. 
That's all I want.
    Chairman Chaffetz. Okay. The gentleman will suspend. The 
committee should also be aware that the committee did send a 
subpoena to Mr. Pagliano to produce this immunity agreement. 
That was due today at 10 a.m., and he did not produce that as 
well. So he was under subpoena to not only have his presence 
here, but so that everybody on this panel can see this immunity 
agreement, which he supposedly has in his possession. Those 
documents were also subpoenaed by the committee, and he did not 
comply with that as well.
    It is the intention of the chair here, we are going to move 
on. There's a lot to address with Mr. Pagliano. Like I said, we 
are not letting go of this, but we need to continue with this 
hearing.
    We have Mr. Combetta, Mr. Thornton, Mr. Cooper here, we do 
appreciate you being here. All witnesses are to be sworn before 
they testify. So if you will please rise and raise your right 
hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth and nothing 
but the truth?
    Thank you. You may be seated. Let the record reflect that 
all witnesses answered in the affirmative.

   STATEMENTS OF JUSTIN COOPER; BILL THORNTON, PLATTE RIVER 
       NETWORKS; AND PAUL COMBETTA, PLATTE RIVER NETWORKS

    Chairman Chaffetz. We have not received any written 
testimony from today's witnesses. Mr. Combetta, do you intend 
to make an opening statement?
    Mr. Combetta. On advice of counsel, I respectfully decline 
to answer, and I assert my Fifth Amendment privilege.
    Chairman Chaffetz. Mr. Thornton, do you intend to make an 
opening statement?
    Mr. Thornton. On the advice of counsel, I respectfully 
decline to answer and assert my Fifth Amendment constitutional 
privilege.
    Chairman Chaffetz. Mr. Cooper, do you intend to make an 
opening statement?
    Mr. Cooper. I have no opening statement.
    Chairman Chaffetz. Okay. Please, if you all can move the 
microphone a little tighter, a little closer, it is just hard 
to hear.
    Mr. Combetta, we sent a subpoena to you for your--supposed, 
we had read that there was an immunity agreement. Mr. Combetta, 
did you produce your immunity agreement this morning as 
required under the subpoena?
    Mr. Combetta. On advice of counsel, I respectfully decline 
to answer and assert my Fifth Amendment privilege.
    Chairman Chaffetz. Mr. Combetta, a couple of questions. 
Senator Johnson last year released a portion of an August 19, 
2015 internal communication between two Platte River Networks 
employees. Here's how it read. Quote, ``Wondering how we can 
sneak an email in now after the fact asking them,'' meaning 
them, we read to be the Clinton Executive Services Corporation, 
``when they told us to cut the backups and have them confirm it 
for our records. Starting to think this whole thing is really 
covering up some shady''-- and there is an expletive there. ``I 
just think if we have it in writing that they told us to cut 
the backups then we can go public with our statements saying 
we've had the backups since day one. Then we were told to trim 
to 30 days would make us look a whole lot better.''
    As I understand it, you were one of the two employees 
assigned at PRN in the Clinton account. Did you send or receive 
this email?
    Mr. Cooper. On advice of counsel, I respectfully decline to 
answer and assert my Fifth Amendment privilege.
    Chairman Chaffetz. Mr. Combetta, 2 days after that last 
email, you wrote on August 21, 2015, to an employee of a third 
party backup firm called Datto, this is what it said. Quote, 
``We are trying to tighten down every possible security angle 
on this customer. It occurs to us that anyone at PRN with 
access to the data partner portal, i.e., everyone here, could 
potentially access, this device via remote web feature. Can we 
set up either two factor authentication or move this device to 
a separate partner account or some other method to allow only 
who we permit on our end to access this device via the 
Internet,'' end quote.
    If I understand the email correctly, every single employee 
at PRN could have accessed some of the most highly classified 
national security information that has ever been breached at 
the State Department. Can you prove that no other individuals 
accessed this data or even passed it on to someone else?
    Mr. Combetta. On advice of counsel, I respectfully refuse 
to answer and assert my Fifth Amendment privilege.
    Chairman Chaffetz. One last one here, Mr. Combetta. You are 
an IT guy who is paid by the Clintons. Generally, IT guys don't 
erase their client's emails unless they are told to do so. So 
who told you to delete the emails?
    Mr. Combetta. On advice of counsel, I respectfully decline 
to answer and assert my Fifth Amendment privilege.
    Chairman Chaffetz. Mr. Cummings, do you have any questions?
    Mr. Cummings. Yeah. Do you all plan to continue to assert 
your--Mr. Combetta, Mr. Thornton, do you plan to continue to 
assert your Fifth Amendment rights? Is that your plan? Is that 
your plan?
    Mr. Combetta. On advice of counsel, I respectfully refuse 
to answer and assert my Fifth Amendment privilege.
    Mr. Cummings. And you, Mr. Thornton?
    Mr. Thornton. On the advice of counsel, I respectfully 
decline to answer and assert my Fifth Amendment constitutional 
privilege.
    Mr. Cummings. I'm not going to have any other questions 
since it's clear that you are going to--you are taking the 
Fifth on this. But, and I can understand why you are doing what 
you are doing. We have had a case here before where answering a 
question or two we then ended up being in all kinds of 
litigation as to whether or not you had waived your Fifth 
Amendment privileges, and so I have nothing further. And I do 
know that D.C. ethics--there's D.C. ethics opinion that 
addresses the abuse of witnesses trying to take their Fifth 
Amendment privileges, and as a lawyer, I'm not going to be a 
part of that process.
    Chairman Chaffetz. Mr. Combetta, given that you have 
indicated that you do not intend to answer any questions, out 
of respect for your constitutional rights, we will now excuse 
you from the table. Okay.
    Mr. Thornton, yesterday, Chairman Lamar Smith of the House 
Science, Space, and Technology Committee released an August 13, 
2015 letter from Datto to PRN's attorney which said this, and I 
quote, ``We have been following the news reports concerning 
various investigations related to Secretary Clinton's emails, 
including Platte River's provision of IT-related services to 
her. We have some concerns relative to data security. Platte 
has not enabled encryption at the local device. Given the 
sensitive high-profile nature of the data which is alleged in 
press reports to potentially reside on the Datto device, it may 
be the target of cyber attack from a multitude of highly 
sophisticated and capable entities or individuals. We believe 
such an event could place the encrypted''--``the unencrypted 
data itself at risk as well as expose both Datto, and Platte 
River systems to collateral damage. In its current state''--and 
it goes on, ``the device and the data that is stored thereon,'' 
and it goes on, ``is more vulnerable to''--``is more vulnerable 
to cyber attack than Datto believes is prudent under the 
circumstances.''
    Mr. Thornton, given the vulnerabilities identified by 
Datto, are you aware of any hacks of PRN's systems?
    Mr. Thornton. On the advice of counsel, I respectfully 
decline to answer and assert my Fifth Amendment constitutional 
privilege.
    Chairman Chaffetz. I would like to just ask you one other 
question that I can't imagine has any implications on any 
criminal culpability or anything else. It's just a simple 
question, yes or no. And we will--if you will answer this one, 
we will cut you loose here.
    Were you interviewed by the FBI?
    Mr. Thornton. On the advice of counsel, I respectfully 
decline to answer and assert my Fifth Amendment constitutional 
privilege.
    Chairman Chaffetz. You can't answer the question about 
whether or not you were interviewed by the FBI?
    Mr. Thornton. On the advice of counsel, I respectfully 
decline.
    Chairman Chaffetz. Mr. Cummings.
    Mr. Cummings. Again, and as a member of the bar for 40 
years, I'm not going to participate in this. You know, I just 
think that when we bring witnesses here and we parade them when 
we could do it in executive session, or whatever, again, I 
think it would be unethical for me to do that. So I have 
nothing.
    Chairman Chaffetz. Given that the witness has indicated he 
does not intend to answer any questions out of respect for his 
constitutional rights, we will now excuse Mr. Thornton from the 
table.
    We will recess for 2 minutes while the clerk is able to 
reset the table. The committee stands in recess.
    [Recess.]
    Chairman Chaffetz. The committee will come to order. As we 
last left it, there are some serious questions based on the 
emails about the--here you have some of the most vulnerable 
secrets in all of the State Department, all of the United 
States, people put their lives on the line for this country and 
this data, evidently, is unencrypted, without dual 
authentication and it begs a lot of questions.
    Mr. Cooper, you told the FBI, evidently, that you helped 
set up Hillary Clinton's--Secretary Clinton's New York and D.C. 
residences with an iMac, correct?
    Mr. Cooper. That is correct.
    Chairman Chaffetz. So did you set them up or did you set 
them up with somebody else?
    Mr. Cooper. Those were out-of-the-box solutions that were 
set up prior to her----
    Chairman Chaffetz. I'm sorry. You've got to move it a 
little closer. It's just, we're having a hard time.
    Mr. Cooper. Those were out-of-the-box solutions that were 
set up prior to her becoming Secretary of State.
    Chairman Chaffetz. And where did you set them up?
    Mr. Cooper. They were set up in the offices that she used 
in each of her homes.
    Chairman Chaffetz. Did that include the SCIF?
    Mr. Cooper. At the time they were set up, those rooms were 
not used as SCIFs.
    Chairman Chaffetz. Did you ever have to service any of 
those computers or work on any of those computers?
    Mr. Cooper. Over periods of time I did service, some work 
on those computers.
    Chairman Chaffetz. You did or did not?
    Mr. Cooper. Did work on those computers.
    Chairman Chaffetz. Including the one in the SCIF?
    Mr. Cooper. I don't recall any specific time that I worked 
on it once they were in the SCIFs.
    Chairman Chaffetz. So--well, how many did you set up at her 
home?
    Mr. Cooper. There was a computer in her office in each of 
her homes. I worked in their homes for a period of 15 years 
and, and certainly, when they were originally set up, they were 
set up primarily for the use of staff in her homes. And I would 
use those computers from time to time to print documents. Once 
they became SCIFs, I don't recall specifically using those 
computers.
    Chairman Chaffetz. Or servicing of those?
    Mr. Cooper. No.
    Chairman Chaffetz. Did you have a security clearance at 
that time?
    Mr. Cooper. No, I did not have a security clearance.
    Chairman Chaffetz. After you left the White House early 
in--when did you leave the White House?
    Mr. Cooper. 2001.
    Chairman Chaffetz. 2001, did you ever have a security 
clearance at any level after that?
    Mr. Cooper. No, I did not have a security clearance.
    Chairman Chaffetz. And you had full access to the whole 
server the entire time that you were working for the Clintons?
    Mr. Cooper. Yes, I had access to the server.
    Chairman Chaffetz. And you have no security clearance?
    Mr. Cooper. I have no security clearance.
    Chairman Chaffetz. You told the FBI that Huma Abedin 
recommended in the fall of 2008 that you contact Bryan Pagliano 
to build the new server system. Is that correct?
    Mr. Cooper. I spoke with Mr. Pagliano at Ms. Abedin's 
request in fall 2008. We had an existing server system for 
President Clinton's staff located in the Clinton's residence. I 
spoke to Mr. Pagliano as that system had its limitations and we 
were thinking about expanding it. He had some opportunities 
using surplus equipment from the Clinton campaign that we could 
use for President Clinton's office to set up.
    Chairman Chaffetz. Sir, we got to still move that 
microphone.
    Mr. Cooper. Sorry.
    Chairman Chaffetz. Just straighten it out and put it right 
up under there. There you go, a little closer.
    Did you--what conversations did you have with Huma Abedin 
about the setting up of the server?
    Mr. Cooper. I don't recall any specific conversations with 
her about the setting up of the server.
    Chairman Chaffetz. What about setting up emails?
    Mr. Cooper. At some point, I had a conversation with her 
about setting up an email for Secretary Clinton on the servers.
    Chairman Chaffetz. What about setting up an email for Huma 
Abedin on those servers?
    Mr. Cooper. As well, I had a conversation about setting up 
an email address for Huma Abedin.
    Chairman Chaffetz. And did you set up an email for Huma 
Abedin?
    Mr. Cooper. Yes.
    Chairman Chaffetz. And did she use that email?
    Mr. Cooper. As far I knew, yes.
    Chairman Chaffetz. What other staff used the Clinton email?
    Mr. Cooper. The other staff were all staff members for 
President Clinton's office.
    Chairman Chaffetz. So----
    Mr. Cooper. Not on the Clinton email domain; on the 
Clinton----
    Chairman Chaffetz. Clintonemail.com, to be specific.
    Mr. Cooper. There were no other staff that I recall using 
that domain.
    Chairman Chaffetz. Just--so who had an email address at 
Clintonemail.com?
    Mr. Cooper. The additional person who had an email address, 
there was Chelsea Clinton.
    Chairman Chaffetz. So did you have one?
    Mr. Cooper. No.
    Chairman Chaffetz. So you, Huma Abedin and Secretary 
Clinton had email addresses there.
    Mr. Cooper. I did not have an email address on Clinton 
email.
    Chairman Chaffetz. I'm sorry. Okay, so--sorry. Hillary 
Clinton, Huma Abedin and Chelsea Clinton each had email 
addresses at that address?
    Mr. Cooper. Correct.
    Chairman Chaffetz. What other computers did you set up in 
their residence? How many computers did you set up?
    Mr. Cooper. The only computers I set in the residence were 
the two iMacs which you have previously mentioned, and the 
initial Apple server which came in with support from Apple to 
set up that server in their household.
    Chairman Chaffetz. And did you set up anything in 
Washington, D.C. at her residence there?
    Mr. Cooper. As mentioned, one of the two iMacs which you 
referred to was in Washington, D.C.
    Chairman Chaffetz. So the other one was in Chappaqua, New 
York.
    Mr. Cooper. Correct.
    Chairman Chaffetz. Okay. So there's a total of two 
computers, one in Chappaqua. Why did you set up 
Clintonemail.com?
    Mr. Cooper. Secretary Clinton was transitioning from the 
Presidential campaign and her Senate role and had been using 
primarily a BlackBerry for email correspondence. There were 
limitations to her ability to use that BlackBerry as well as a 
desire to change her email address because a number of people 
had received her email address over the course of those 
activities. So we created, with a discussion, I believe, with 
Huma Abedin at the time, what domains might be of interest. We 
obtained a domain and we added it to the original server used 
by President Clinton's office for her to use with her 
BlackBerry at the time. And we set that up in a way where the 
messages simply came into that server and bounced right to her 
BlackBerry and were not retained on that Apple server.
    Chairman Chaffetz. Who paid for these computers?
    Mr. Cooper. All of them were paid personally by the 
Clintons.
    Chairman Chaffetz. Personally?
    Mr. Cooper. Personally.
    Chairman Chaffetz. And who were you being compensated by?
    Mr. Cooper. I was being compensated by the Clintons.
    Chairman Chaffetz. Just personally, or the Clinton 
Executive Services, Clinton Foundation? What was it?
    Mr. Cooper. At that time I was an employee of both the 
Clinton family personally and the Clinton Foundation.
    Chairman Chaffetz. Okay. All right, my time has expired. I 
will now recognize the ranking member, Mr. Cummings.
    Mr. Cummings. Mr. Cooper, the FBI's investigative summary 
states that the Apple server you helped install in the home of 
President and Secretary Clinton in 2008 was originally 
purchased for the purpose of hosting email services for 
President Clinton's staff. To the best of your knowledge, is 
that accurate?
    Mr. Cooper. Yes, that's accurate.
    Mr. Cummings. According to the FBI's summary, the decision 
was made to keep that server in the Clinton residence. The 
reason was, and I quote, ``Due to concern over ensuring email 
reliability and a desire to segregate email for President 
Clinton's various post-Presidency endeavor,'' end of quote. 
According to the FBI, the decision was made in January 2009 to 
switch from the Apple server to a new server. Yet, the FBI 
investigative summary states that in 2009, quote, ``According 
to Cooper, in or around January of 2009, the decision was made 
to move to another server because the Apple server was 
antiquated and users were experiencing problems with email 
delivery on their BlackBerry devices,'' end of quote.
    Is that accurate?
    Mr. Cooper. I would say that there is not a date certain 
that there was a decision made to switch from one server to the 
other. In my conversations with Mr. Pagliano, I was aware that 
the Apple server which we were using was not fully meeting our 
needs and was not expandable to meet potential future needs of 
other staff in President Clinton's office joining the server. 
It also did not have a robust solution to support BlackBerry 
usage. It is very hard for me to even remember what the 
technology around BlackBerry was then and how they functioned.
    There were more progressive ways to use a BlackBerry. Mr. 
Pagliano had the expertise to set up a server that had a proper 
BlackBerry interface with it and that was something that was 
desired by President Clinton's team. And so over a period of 
time, as Bryan decommissioned those servers from the campaign, 
we were able to purchase them from the campaign. He then took 
time to set them up on his time, either in the campaign offices 
or his home--I'm not sure of the location--and then delivered 
them to Chappaqua, I believe, in around March of 2009, when I 
physically helped him move them into the space where they were 
going to reside.
    Mr. Cummings. So Secretary Clinton began using that new 
server for email around March 2009. Is that accurate?
    Mr. Cooper. Her connection to that server, I believe, was 
in March 2009.
    Mr. Cummings. The Republicans have a conspiracy theory that 
Secretary Clinton used the server in her home for email in 
order to avoid complying with records laws. Representative 
DeSantis asked Director Comey directly about that theory. He 
asked, and I quote, ``Was the reason she set up her own private 
server, in your judgment, because she wanted to shield 
communications with Congress and from the public?''
    Now, Mr. Cooper, here is what Director Comey said, and I 
quote, ``I can't say that. Our best information is that she set 
it up as a matter of convenience. It was an already existing 
system that her husband had and she decided to have a domain on 
that system.''
    Now, do you have any evidence to dispute what the FBI 
Director Mr. Comey said?
    Mr. Cooper. No, I don't have any evidence to dispute that. 
I believe that Secretary Clinton had a personal email on her 
BlackBerry and was looking for a new solution to be able to use 
personal email.
    Mr. Cummings. Now, were you ever told that Secretary 
Clinton used a server in her home to avoid the Federal Records 
Act.
    Mr. Cooper. No, I was never told that.
    Mr. Cummings. Were you ever told that Secretary Clinton 
used the server in her home to avoid the Freedom of Information 
Act?
    Mr. Cooper. No, I was never told that.
    Mr. Cummings. Now, Mr. Cooper, I think it would be helpful 
to walk through exactly what your role was and was not with 
regard to the production of Secretary Clinton's emails to the 
State Department and the FBI.
    Did you cooperate with the FBI investigation, to the best 
of your ability?
    Mr. Cooper. Yes, I did.
    Mr. Cummings. Did you turn over to the FBI any relevant 
records that were in your possession?
    Mr. Cooper. Yes, I turned over records to the FBI.
    Mr. Cummings. In mid- to late 2014, Secretary Clinton's 
attorneys attempted to collect all of Secretary Clinton's work-
related files from her tenure at the State Department and turn 
them over to the State Department.
    Mr. Cooper, were you involved in that 2014 document 
production process?
    Mr. Cooper. No, I was not.
    Mr. Cummings. Now, did the FBI determine that none of 
Secretary Clinton's work-related emails were intentionally 
deleted in an effort to conceal them from investigators.
    Do you have any reason to dispute that finding?
    Mr. Cooper. I do not have any reason to dispute that 
finding.
    Mr. Cummings. Thank you very much.
    Chairman Chaffetz. I now recognize the gentleman from 
Florida, Mr. Mica, for 5 minutes.
    Mr. Mica. So Mr. Cooper, you started, again, the whole 
setup of the first server in 2007, '08, right? And you gave the 
Clinton domain email address, set that up. Is that correct? 
That was at the very beginning as she was leaving the campaign, 
coming into office.
    Mr. Cooper. I'm sorry. From my recollection, there was a 
President Clinton domain set up prior to that point, and the 
Clinton email domain was set up in January of 2009.
    Mr. Mica. In 2009. Okay. At some point when she left, I 
guess, the private capacity, came into the public, I have some 
information that at least two of her old mobile devices were 
destroyed and you took part in that. Is that correct?
    Mr. Cooper. I believe you are referring to the FBI report 
that mentions the two----
    Mr. Mica. Yes.
    Mr. Cooper. I can't----
    Mr. Mica. And did you take part in destroying some of her 
old mobile devices?
    Mr. Cooper. Yes. At some point in time when she was 
transitioning from one mobile device to the next, we would take 
the information that was on the old device, back it up, 
transfer it to the new device----
    Mr. Mica. Had you worked with Mr. Pagliano?
    Mr. Cooper. I would interface with Mr. Pagliano on this.
    Mr. Mica. Did you ever discuss with him how you could 
destroy a device? Did he participate in destruction of any 
devices?
    Mr. Cooper. I don't recall any conversations of that type.
    Mr. Mica. Okay. Are you aware of what happened to his 
emails? You actually were the one servicing the server for most 
of the period while she was Secretary of State. Is that 
correct?
    Mr. Cooper. I would categorize it differently. Bryan 
Pagliano serviced the server.
    Mr. Mica. You set it up and he conferred--you conferred 
with him. You----
    Mr. Cooper. Mr. Pagliano set it up. He engineered it and I 
was the interface between the users, and----
    Mr. Mica. Would he have had any emails on those servers, to 
your knowledge?
    Mr. Cooper. No.
    Mr. Mica. He wouldn't? And you have no idea what happened 
to all of his emails?
    Mr. Cooper. I certainly do not.
    Mr. Mica. You also were made aware on two--or made aware on 
two occasions to Secret Service, I think January 2011, that 
someone was trying to hack the system. Is that correct?
    Mr. Cooper. I used that word colloquially to describe what 
was a series of false logins on the server.
    Mr. Mica. And not once, but twice, and then you closed down 
the system briefly to deal with the situation?
    Mr. Cooper. Correct.
    Mr. Mica. When were you first contacted by the FBI?
    Mr. Cooper. I believe it was August of last summer.
    Mr. Mica. And was that the first time you sat down with 
them, or was that later?
    Mr. Cooper. Yes.
    Mr. Mica. That was your first interview?
    Mr. Cooper. Yes.
    Mr. Mica. How many times were you interviewed?
    Mr. Cooper. Three times.
    Mr. Mica. And could you give us the approximate dates? Last 
summer was the first, and then subsequent----
    Mr. Cooper. Last summer, subsequently in the fall, and this 
spring, I believe.
    Mr. Mica. Were you ever offered any type of immunity 
agreement by the Department of Justice?
    Mr. Cooper. I was not.
    Mr. Mica. How long have you been represented by your 
current counsel?
    Mr. Cooper. Since the beginning of--since I was first 
contacted by the FBI.
    Mr. Mica. And, again, you have explained that it was the 
Clintons who paid for your counsel up to that time and the 
organization that was set up by the Clintons?
    Mr. Cooper. I'm the only person who's paid for my counsel.
    Mr. Mica. You paid for your own expenses? They have not 
paid for any?
    Mr. Cooper. Correct.
    Mr. Mica. Have you had any kind of a joint defense 
agreement with any other individual involved in the FBI's 
investigation?
    Mr. Cooper. I have no such agreement.
    Mr. Mica. No such agreement.
    Finally, you stepped back from the day-to-day activities 
with the Clintons about the time of the transition. Is that 
correct, as she left office?
    Mr. Cooper. Yes.
    Mr. Mica. And Pagliano took over?
    Mr. Cooper. Yes.
    Mr. Mica. And you were also responsible for the transfer--
helping with the transfer. In fact, you walked her aide, 
Hanley, over the phone through taking the information that they 
had in emails and archiving it. Is that correct?
    Mr. Cooper. At one point, I assisted Monica Hanley in 
setting up a laptop computer so that she could create an 
offline archive of the emails that were on the server.
    Mr. Mica. And to your knowledge, was everything----
    Mr. Cooper. I do not know the outcome of that.
    Mr. Mica. You don't know if they were. And do you know, 
finally, was there any deletion, or attempts for--to delete any 
information that had been stored that was going to be 
transferred and archived?
    Mr. Cooper. I have no knowledge of that.
    Mr. Mica. I thank you.
    Chairman Chaffetz. I now recognize the gentlewoman from the 
District of Columbia, Ms. Norton, for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. The FBI report for the 
average American put the matter involving Ms. Clinton's emails 
to rest for the average person. The FBI was a tough report, and 
yet, you could take kernels, and that's what happened here, and 
I want to ask you, Mr. Kernel--Mr. Cooper, about one of those 
kernels. One of the most venal of the conspiracy theories to 
come forward out of that report follows on from some testimony 
you gave. The report quotes you, and I take it you were under 
oath before the FBI?
    Mr. Cooper. I'm sorry, I was not under oath.
    Ms. Norton. Well, it says you advised that you sometimes 
assisted users, including Clinton. I'm now quoting report--
``when they obtained a new mobile device by helping them back 
up the data from the old device before transferring it to the 
new device and syncing the new device with''-- Clinton--``with 
the Clinton server.''
    Mr. Cooper. That's correct.
    Ms. Norton. That quote is correct. Then the summary 
describes two instances--and here is where the conspiracy 
theories have been acted out both in this House, and in 
Presidential campaign--that you recall two instances where you 
destroyed old mobile devices with a hammer. And Mr. Trump 
claimed that who would do that if they didn't have anything to 
hide. And Representative DeSantis picked up than rhetoric and 
said, it obviously shows intent to hide something.
    Mr. Cooper, I'd like to directly ask you about the 
destruction of those BlackBerrys.
    Was your purpose in destroying the old BlackBerry device 
ever to hide Secretary Clinton's emails from being saved or 
disclosed from Federal Records Laws?
    Mr. Cooper. Congresswoman, no, it is not in any way to 
destroy or hide any information at all. I couldn't speak to 
whether there were records on there that needed to be or should 
be considered Federal records. In fact, the opposite would be 
the case, in that I was going out of my way to preserve all of 
the information that was on those devices, transfer them to the 
new devices and make sure the server loaded on them.
    Ms. Norton. Well, that was going to be my question. Before 
you destroyed them, from one BlackBerry to another, did you 
transition the very same emails from the old BlackBerry to the 
new one?
    Mr. Cooper. It is a combination of the backup procedure and 
the procedure of activating the new device. All of the 
information from the previous device would have ended up on the 
new device before we went and deleted using the BlackBerry 
tools to wipe the old device.
    Ms. Norton. So that would mean, would it not, or did it 
mean that you copied the content, total content----
    Mr. Cooper. It means that----
    Ms. Norton. --of the Secretary's device, saved it and 
loaded it onto a new device so you had the exact same thing 
onto the new device?
    Mr. Cooper. That is correct.
    Ms. Norton. During the course of the FBI's investigation, 
did you realize that you still had retained the extra copy of 
the content of those old BlackBerry devices on your own 
machine, and did you provide that information to the FBI?
    Mr. Cooper. In preparing to meet with the FBI and examining 
my files related to the server, I did describe some files that 
may have contained content related to this.
    I turned that content over to my attorneys who have worked 
with the FBI and Department of Justice on capturing that 
material for their possession.
    Ms. Norton. So I take it that that was to make the case 
that you do not intend to destroy the BlackBerrys to hide 
anything.
    Mr. Cooper. That is correct.
    Ms. Norton. And now the FBI has the information that was on 
every single BlackBerry, including that last BlackBerry.
    Mr. Cooper. Certainly, they have the information for the 
ones that I had backup files on.
    Ms. Norton. And, in any case, it's from one BlackBerry to 
another BlackBerry with nothing lost in between.
    Mr. Cooper. Correct.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Chairman Chaffetz. I now recognize the gentleman from 
Tennessee, Mr. Duncan, for 5 minutes.
    Mr. Duncan. Thank you very much, Mr. Chairman.
    Mr. Cooper, do you have an IT background or do you consider 
yourself to be an expert in the IT field?
    Mr. Cooper. No, I do not consider myself to be an expert.
    Mr. Duncan. Do you think the State Department should have 
had someone more qualified than you to oversee and protect 
Secretary Clinton's server from hackers?
    Mr. Cooper. I was not working for the State Department. And 
I believe the server to be--again, it was primarily used by 
President Clinton's office. Secretary Clinton had what I 
believe was a personal account on that server. I'm not in a 
position to talk about what the role of the government is in 
protecting that sort of information.
    Mr. Duncan. On Sunday, January 9, 2011, at 2:57 a.m., 2:57 
in the morning, you sent an email to Secretary Clinton's top 
aide, Huma Abedin, explaining that you had to shut down 
Secretary Clinton's server due to someone trying to hack it.
    How many times did you personally have to shut down the 
server to prevent it from being hacked?
    Mr. Cooper. Again, it's the server that contained both 
Secretary Clinton's and also President Clinton's office on 
there. This was an attempt--a series of failed log-on attempts, 
which were brought to my attention by an alert we had on the 
system.
    One of the ways to stop that in the early operations of the 
server was to shut down the server for a period of time so that 
the attacks would cease. We would then over time develop more 
sophisticated ways, at the direction of Mr. Pagliano, to help 
to filter those sorts of failed log-in attempts.
    Mr. Duncan. Do you know whether powering down a server is 
the typical way in the IT community to protect against hacks?
    Mr. Cooper. I can't speak to that.
    Mr. Duncan. Do you know what a brute-force attack is?
    Mr. Cooper. Yes. A brute-force attack, from my 
understanding, is a series of high-frequency failed log-in or 
attempted log-ins using a variety of usernames and passwords.
    Mr. Duncan. How many brute-force attacks did you observe on 
the Clintons' server?
    Mr. Cooper. I can't say with any specificity how many had 
happened. They happened with some limited frequency over the 
period of, I'd say, the last 2-1/2 years while she was in 
office, but we had developed systems to tamper these down.
    Mr. Duncan. They occurred with frequency?
    Mr. Cooper. Some frequency.
    Mr. Duncan. All right. I yield my remaining time back to 
the chairman.
    Chairman Chaffetz. Mr. Cooper, how many people had access 
to this server?
    Mr. Cooper. In terms of its administrators?
    Chairman Chaffetz. I want the whole universe--
administrators, users, the whole gamut.
    Mr. Cooper. There were two people who had some 
administrative rights, which was myself and Mr. Pagliano. I 
can't off the top of my head tell you exactly how many users 
there were over the lifetime of the server, but it was less 
than 20 people.
    Chairman Chaffetz. Was there remote access log-in 
available?
    Mr. Cooper. The only remote access log-in to the server was 
for myself and Mr. Pagliano.
    Chairman Chaffetz. Was it encrypted?
    Mr. Cooper. I can't speak to that. I can't recall.
    Chairman Chaffetz. So you're running it; you don't even 
know if it was encrypted?
    Mr. Cooper. Mr. Pagliano was running it. I was using it.
    Chairman Chaffetz. Did it have dual authentication?
    Mr. Cooper. I don't recall dual authentication.
    Chairman Chaffetz. So there's no dual authentication. We're 
not sure it has encryption. It does have remote access. You 
have some 20-odd people that can do it. It's intermingled with 
the Clinton Foundation.
    Clinton Executive Services, did it also have access to 
that?
    Mr. Cooper. I can't say it's intermingled with the Clinton 
Foundation. Clinton Executive Services----
    Chairman Chaffetz. You're being paid by them, right? There 
were people being paid by the Clinton Foundation that were 
accessing and using the system, right?
    Mr. Cooper. In part. There were individuals who had 
multiple job responsibilities for multiple entities within the 
Clinton world, and some people did do work for the Clinton 
Foundation, yes.
    Chairman Chaffetz. So did the State Department ever contact 
you or complain or issue any sort of concern?
    Mr. Cooper. No, I did not have any concern or----
    Mr. Duncan. Mr. Chairman, I have one more question.
    Chairman Chaffetz. Yes, Mr. Duncan.
    Mr. Duncan. Mr. Cooper, I understand that in order to make 
Secretary Clinton's private insecure email server connect with 
the State Department's much more secure server, the State 
Department had to lower its own security settings, at least 
temporarily, to match Secretary Clinton's more insecure 
security server.
    Do you know anything about that, the fact that she had this 
insecure server?
    Mr. Cooper. That is not something I specifically know 
about. I've read accounts of that in the media, but I have no 
direct knowledge of that.
    Mr. Duncan. All right. Thank you very much.
    Chairman Chaffetz. Thank you.
    We'll now recognize the gentleman from Massachusetts, Mr. 
Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    Thank you, Mr. Cooper, for being here and your willingness 
to testify. Appreciate that.
    Mr. Cooper, the FBI conducted a yearlong investigation that 
concluded that--and I'll use Director Comey's own statement 
here. He said, ``We did not find clear evidence that Secretary 
Clinton or her colleagues intended to violate laws governing 
the handling of classified information.''
    And he went on to say that ``I do not see evidence that is 
sufficient to establish that Secretary Clinton or those with 
whom she corresponded both talked about classified information 
on email or knew when they did it that they were doing 
something that was against the law.''
    Now, I know you're not a computer expert, and that's 
probably a more appropriate line of questioning for Mr. 
Pagliano. But in its yearlong investigation, the FBI did have a 
number of technical computer experts on their team, and they 
took about a year.
    And I want to, again, recite their conclusion. And this is 
Director Comey again in his testimony before this committee. He 
said, quote, ``With respect to potential computer intrusion by 
hostile actors, we did not find direct evidence that Secretary 
Clinton's personal email domain, in its various configurations 
since 2009, was successfully hacked.''
    And the FBI investigation summary similarly stated, ``The 
FBI investigation and forensic analysis did not find evidence 
confirming that Clinton's email server systems were compromised 
by cyber means.''
    Do you have any information today, Mr. Cooper, that 
contradicts the FBI's finding?
    Mr. Cooper. I do not have any information that would 
contradict that finding.
    Mr. Lynch. Okay.
    The FBI also interviewed Bryan Pagliano, the IT expert on 
the server. The FBI's investigative summary describes in some 
detail what he explained. And it states, quote, ``When asked 
about the maintenance and security of the server system he 
administered, Pagliano stated there were no security breaches, 
but he was aware that there were many failed log-in attempts, 
which he referred to as brute-force attacks,'' what the 
gentleman was referring to earlier in his line of questioning.
    Mr. Cooper, is that statement that I just read, that quote 
from Mr. Pagliano in his conversation with the FBI, is that 
consistent with your recollection?
    Mr. Cooper. That is consistent with my recollection.
    Mr. Lynch. Okay.
    Did you take any steps to protect the server when there 
were these failed brute-force, so-called, log-in attempts?
    Mr. Cooper. Over time, Mr. Pagliano developed a few 
different solutions that allowed us to manage them in a variety 
of ways, from blocking the IP addresses manually and ultimately 
automatically, as I recall.
    Mr. Lynch. Okay. The FBI summary explains some additional 
steps that were described. I'm not sure if it was--I think it 
was Mr. Pagliano who took those steps to improve the security 
of the server, including establishing secure socket-layer 
certification for encrypted log-in on March 29th and Internet 
protocol filtering to block access from would-be hackers.
    Is that consistent with your recollection?
    Mr. Cooper. That is consistent with my recollection.
    Mr. Lynch. Thank you.
    That's all I have, Mr. Chairman. I yield back.
    Chairman Chaffetz. The gentleman yields back.
    We'll now recognize the gentleman from Ohio, Mr. Jordan, 
for 5 minutes.
    Mr. Jordan. Thank you, Mr. Chairman. I actually had 
questions for the guys who aren't here, so I want to just walk 
the committee through a few things.
    If we can put up the slide, that would be good.
    And this is where the chairman was earlier when Mr. 
Thornton and Mr. Combetta were here. This is an email we think 
either from one of those guys--one of those guys sent it and/or 
received it. And I just want to read this.
    Look at the date first, August 2015. A lot of things 
happened before that date. But, ``Wondering how we can sneak an 
email in now after the fact asking them when they told us to 
cut the backups and have them confirm it for our records. We're 
starting to think this whole thing is really covering up a lot 
of bad stuff.''
    They wanted something in writing because they knew they 
were going to get thrown under the bus later on.
    And we know that they changed the backup structure, because 
look at the FBI report, page 18. Cheryl Mills instructed 
someone--name is redacted--at Platte River Network to modify 
the email retention policy on Clinton's ClintonMail.com email 
account. She wanted to get rid of anything after 60 days.
    So we know they were instructed to do it; they just wanted 
something in writing.
    Let's just walk through some history here.
    From the FBI report, July 2014: At the request of Cheryl 
Mills, Platte River Network remotely transfers all Hillary 
Clinton emails to Cheryl Mills' and Heather Samuelson's 
laptops. These laptops later have BleachBit applied to them, 
and stuff is deleted.
    What happened right before that? What happened right before 
July 2014? Again, go to the report. Page 15 of the report: 
During the summer of 2014, Cheryl Mills is given a heads-up by 
the State Department that there would be a letter coming, 
requesting all Hillary Rodham Clinton's emails.
    Jump forward to December. Cheryl Mills requests Platte 
River Network change the email retention policy on her account, 
what I just read.
    What happened right before that? What prompted this change? 
December 2nd, Chairman of the Benghazi Committee Trey Gowdy 
sends a letter to David Kendall, says, hey, we just found out 
about this other account--we didn't know at the time it was the 
only account--this other account that Hillary Clinton has. We'd 
like the information, any emails relating to the Benghazi 
situation from that account. And, of course, right after that, 
they changed the policy, and Platte River Network is instructed 
to delete anything after 60 days.
    And now we move forward to the amazing month, the one the 
chairman cited in his opening comments, March 2015.
    March 2nd, New York Times reports she's got just this one 
email account, this private server situation.
    March 3rd, Mr. Gowdy sends a preservation letter telling 
them to preserve everything that might be relevant to our 
investigation.
    March 4th, there's a subpoena.
    March 9th, Platte River Network is put on notice about the 
preservation order.
    March 10th, she does her press conference.
    And, of course, the important dates, March 25th and March 
31st. Those two dates, there are conference calls with Clinton 
lawyers--Bill Clinton's lawyers and Hillary Clinton's lawyers 
and Platte River Network's.
    And, of course, on the 31st of that month is when they take 
BleachBit to the whole darn thing and they get rid of 
everything--they get rid of everything.
    So now we have two guys--three guys, one on the front end, 
Mr. Pagliano, who helped Mr. Cooper set it up, take the Fifth 
and get immunity, and now we have two guys on the tail end--
right?--Mr. Combetta and Mr. Thornton, didn't work for the 
government, they take the Fifth, and Mr. Combetta, at least, 
gets immunity.
    Go back to the date again, August 2015. These guys are 
starting to wonder, wow, we don't have anything in writing. 
We've been given all these instructions--verbally, phone calls, 
conference calls--all these instructions to change the backup, 
delete things, erase things, BleachBit things, take hammers to 
things, all these instructions. We don't have anything in 
writing. We might be in trouble. And guess what? They are.
    That's the story. And that's why it's appropriate, Mr. 
Cummings, for the chairman to invite them in here today and see 
if they would finally answer somebody's question.
    Mr. Gowdy's just right; he is exactly right. They'll talk 
to the people who can put them in jail, but they won't talk to 
Congress. They'll talk to the Justice Department--Mr. Pagliano, 
Mr. Combetta will talk to the Justice Department, but they 
won't talk to us. We can't put them in jail. We just want to 
get answers for the American people, and they won't talk to us.
    I've never seen anything like this, Mr. Chairman, where you 
get--as we talked about yesterday. No regular American can get 
away with the kind of behavior Secretary Clinton gets away 
with. Two standards now in the country. And this is what is so 
wrong, and this is why the hearings you're having and the 
investigation we're doing is entirely appropriate.
    And, with that, I yield back.
    Chairman Chaffetz. The gentleman yields back.
    We'll now recognize the gentleman from Texas, Mr. 
Farenthold, for 5 minutes.
    Mr. Farenthold. Thank you, Mr. Chairman.
    Mr. Cooper, thank you for being here and having the courage 
to testify before us and getting to the truth.
    I want to just take a big step back. I'm pretty geeky, and 
I'm going to ask some geek questions you may or may not be able 
to answer.
    But the server the Clintons had, this wasn't, like, just a 
personal computer that everybody has that they pick up their 
email. I've had people go, ``Oh, I've got a server in my house. 
That's how I get email.'' They think their personal computer is 
a server.
    This is a computer running business-class software that 
delivered and forwarded and stored email for dozens of people. 
Is that correct?
    Mr. Cooper. Yes, that's correct.
    Mr. Farenthold. And are you familiar with many people who 
have this type of equipment in their home? It's typically 
something that's in an office. Is that correct?
    Mr. Cooper. That's correct.
    Mr. Farenthold. Do you know anybody who has a server at 
their home, besides maybe me?
    Mr. Cooper. I'm certainly aware of some people who have 
servers----
    Mr. Farenthold. But it's pretty rare.
    Now, are you familiar with what email software was running 
on the server?
    Mr. Cooper. I do not recall specifically what the software 
was running on either server.
    Mr. Farenthold. All right. And you told the chairman that 
what it was set up to do was an email came and it forwarded it 
to Mrs. Clinton's BlackBerry. And did it delete it from that 
server, or did it keep it on that server?
    Mr. Cooper. My recollection--and just to be clear, there 
are two servers that we're speaking about. There was an Apple 
server in use from approximately June 2008 until----
    Mr. Farenthold. Right.
    Mr. Cooper. --March 2009. That server, which was 
originally, again, set up for President Clinton's office staff, 
had some software on it. I'm sorry, I don't recall the name of 
what the software packet is on there that administered that 
ware.
    One was a mail client, and one was a tool that was supposed 
to interface with BlackBerry, but it wasn't BlackBerry's own 
product.
    Mr. Farenthold. So was it secure? Or did it just, like, 
forward using SMTP----
    Mr. Cooper. I can't----
    Mr. Farenthold. --like the Verizon-BlackBerry gateway?
    Mr. Cooper. I can't speak to the security of what that 
software was. But I believe, in the case of Secretary Clinton, 
because she wasn't going to be accessing that email in any 
other fashion and the focus was transitioning her email address 
over so people would start to use her new email address, we 
were simply receiving messages in, not retaining them on that 
server, and having them automatically forward to her----
    Mr. Farenthold. Right. And on the later server, did it do 
the same thing?
    Mr. Cooper. On the later server, it functioned more like 
what you are probably used to in your day-to-day activity, 
where there was a mailbox on that server that could be 
accessed----
    Mr. Farenthold. Right. And was it opened up to where you 
could get your email through that server through POP3 or IMAP 
or a Web client?
    Mr. Cooper. While I don't specifically recall, I believe, 
depending on the user, we would customize--Bryan would help to 
customize what ports were open----
    Mr. Farenthold. Right.
    Mr. Cooper. --based on how that user was accessing----
    Mr. Farenthold. And did you require that users picking up 
their mail remotely use a secure client? Or did they just come 
in cleartext over the standard SMTP ports----
    Mr. Cooper. I can't----
    Mr. Farenthold. --the POP reports?
    Mr. Cooper. I don't recall what the protocols were.
    Mr. Farenthold. All right. So you don't know if there was a 
requirement to log in with an SSL. So it could potentially have 
been in cleartext.
    All right. Did you turn over the logs and notifications 
that you received to the FBI, the email--of the brute-force 
attacks?
    Mr. Cooper. I did not turn those over to the FBI. There was 
an instance where we shared some logs with the United States 
Secret Service when we were first experiencing failed log-in 
attempts.
    Mr. Farenthold. All right. And so you got a notice when 
there was a failed log-in attempt, but if somebody doing this 
brute-force attack, where they just enter a username and throw 
random passwords at it, if they'd gotten it right, you wouldn't 
have been notified, would you? You'd have thought maybe it was 
Mrs.--you would have probably thought it was Mrs. Clinton or 
some legitimate user actually getting in.
    Mr. Cooper. I don't want to suppose, but----
    Mr. Farenthold. You only get notices of failed log-in 
attempts.
    Mr. Cooper. Correct.
    Mr. Farenthold. You weren't notified every time somebody 
actually logged in, though there may actually have been a log 
kept.
    Mr. Cooper. Correct.
    Mr. Farenthold. So somebody could have gotten in, and you 
just wouldn't have known it.
    And I'm sorry, I don't remember if I asked this, so I'm 
going to ask again. Was there a firewall between the Internet 
and this server, a piece of hardware between the server and the 
Internet?
    Mr. Cooper. I believe there was a firewall associated with 
the Pagliano server, yes.
    Mr. Farenthold. All right. And was there one with the Apple 
server?
    Mr. Cooper. I don't recall.
    Mr. Farenthold. All right.
    And then we talked a little bit about Mrs. Clinton going 
through a variety of BlackBerrys. Were they all the same 
version of BlackBerrys, or did she migrate up between--you 
know, when the new BlackBerry came out, did she want the latest 
and greatest BlackBerry?
    Mr. Cooper. Again, it's a little bit difficult, I think, 
for me, at least, to go in a time warp and know the sequences. 
But BlackBerry was releasing models quite frequently then with 
very different user interfaces, from trackballs to trackwheels 
to trackpads.
    Mr. Farenthold. I know. I went through that nightmare 
myself.
    Mr. Cooper. And I think over time, you know, she would move 
to a newer device usually when her older device may have been, 
you know, a little bit older, a little bit failing.
    Mr. Farenthold. And do you know if the security patches 
were regularly put on all of these servers?
    Mr. Cooper. I feel fairly confident that the security 
patches were updated by Mr. Pagliano.
    Mr. Farenthold. I'll tell you, having kept a server in my 
house for a while, I gave it up and now moved over to an online 
hosting, because it's next to impossible to keep up with the 
pace of the security fixes that are coming out.
    I see I'm out of time. That happens when I geek out. I 
yield back.
    Chairman Chaffetz. Thank you.
    We'll now recognize the gentlewoman from Wyoming, Mrs. 
Lummis, for 5 minutes.
    Mrs. Lummis. Well, I'm glad that we had a geek-out because 
I can't do that. I'm a rancher. I'm not as familiar with these 
technologies.
    But I do know this, just as an average American, when it 
comes to technology: We do know that the Chinese Government 
hires people to hack by day and that those same hackers hack 
for hire at night. So there are people who are spending every 
single day in China, probably Russia, other countries, trying 
to hack into the computers of U.S. Government officials.
    So security's a constant problem in this country, 
especially for high elected officials or appointed officials. 
And I do know this: that encryption can be used to help prevent 
that, that dual-authentication processes can be used to help 
prevent that kind of hacking.
    So, Mr. Cooper, are you telling me that there was no dual 
authentication, no encryption, and the Secretary of State had 
no protection of our secrets, when we all know that efforts are 
being made to hack people just like her in government?
    Mr. Cooper. I unfortunately cannot provide you with the 
details of what the specific security functions were on the 
server. I know that there were security functions on the server 
and they evolved over time, essentially as technology evolved 
over time, and there were different things that were available 
and considered at different junctures.
    I would certainly agree with you that this is something 
that we should all be concerned with. And I saw this, again, as 
this was--there's a need to, yes, protect the privacy of 
individuals in their personal lives using their email.
    Mrs. Lummis. We also know that--as Members of Congress, we 
just know that if we travel to a foreign country and we have a 
device with us, especially to Russia, they tell you to wrap our 
devices in aluminum foil so there's no transmission. And I've 
seen televised examples of Secretary of State Clinton using her 
electronic devices to communicate while she's running all over 
the world.
    And now that we know that these servers and devices were 
scattered around in her home and that there was some sort of 
management of documents in Colorado, how can people like me 
assure the American people that the information that was on 
those emails--and that some of which has been destroyed and is 
not available to us--is not being sifted through even as we 
speak by Chinese hackers and Russian hackers?
    And what security does our country have by virtue of what 
looks to me like some pretty lackadaisical attitudes towards 
sensitive data, Top Secret data, Secret data, confidential 
data?
    Mr. Cooper. First, Mrs. Lummis, I'm not an expert in 
computer security. I understand some of the concerns you've 
expressed from things I've read in the newspaper, but I have no 
expertise in that area.
    Second, I have no knowledge of the content and cannot 
verify what the content was on this equipment.
    And, third, I also have no specific knowledge in which 
countries Secretary Clinton chose or did not choose to use her 
devices.
    Mrs. Lummis. Mr. Chairman, I yield back.
    Chairman Chaffetz. And before you yield back, if you'd 
yield to me for a second.
    Mrs. Lummis. I yield to the chairman.
    Chairman Chaffetz. So, Mr. Cooper, A, you get huge brownie 
points from the committee for showing up and having the guts to 
actually answer questions. We're very grateful for that. I'm 
also very grateful for your candid nature in expressing the 
idea that you don't have the expertise to even answer those 
questions as thoroughly as possible.
    The problem I have--again, I believe you're doing the best 
you can, at least based on the testimony I've heard thus far. 
Here's the problem: It's you, Mr. Cooper, with no experience, 
no dual authentication, no encryption, up against the Chinese 
and the Russians. Who do you think's going to win that one?
    That's what scares the living daylights out of us, is 
because of the cavalier nature in which this was set up, and 
some of the Nation's most sensitive and secure information. 
That's the concern.
    We're now going to recognize the gentleman from----
    Mr. Cummings. You're not going to let him answer the 
question?
    Chairman Chaffetz. It wasn't a question.
    We're now going to recognize the gentleman from Vermont, 
Mr. Welch, for 5 minutes.
    Mr. Welch. Thank you very much. I'll have a few questions 
and a bit of a statement.
    Mr. Chairman, you're a good chairman, doing a great job, 
but I disagree with you about the excessive, in my view, focus 
on Hillary Clinton.
    I want to give a little perspective here. Legitimate 
investigation. But we had the FBI, we had Mr. Comey, who has an 
unimpeachable record of vigilance as a prosecutor, who calls 
them as he sees them. He went through every single thing, every 
single email. And he came to the conclusion that there was no 
criminal conduct, there was no evidence that, in fact, the 
Secretary's email had been hacked, and he says it's not even a 
close call.
    So, whether that email should have been set up, the private 
server--the Secretary's acknowledged that that was a mistake--
there's a legitimate basis to inquire as to what happened. But 
we've done it. And the FBI's done it. And I have a feeling that 
a little bit of this has to do with something other than the 
emails, and it may have to do with something that's looming in 
November.
    Now, one of the issues that I have as I listen to many of 
the questions of my colleagues is that they're essentially 
asking the witnesses to try to disprove a negative. For 
instance, my friend from Wyoming was asking about the Russians 
and the Chinese trying to get into that email. They probably 
are. They're trying to get into every department we have, 
probably trying to get into the White House, trying to get into 
the Department of Defense and the Joint Chiefs of Staff. So 
that apprehension is well-founded. But there's no way any of us 
can disprove or prove that they have or haven't gotten into the 
email of the Secretary of Defense or the Secretary of State or 
the White House or any of the House accounts.
    So the repetition of the question that raises the 
apprehension that the Chinese or the Russians are making this 
determined effort to hack into accounts and focusing it all on 
Hillary Clinton acts as though that intentionality of the 
Russians and the Chinese doesn't apply across the board to 
anybody and everybody that's in government or may have access 
to some information that they'd want.
    So talking about Mr. Cooper having the guts to come in 
here, thank you, Mr. Cooper, but you can't prove or disprove, 
any more than anyone else can, whether the Russians have 
successfully penetrated anyone's email account, let alone 
Secretary Clinton's.
    So the whole issue here is a repetition of an initial 
assertion that somehow, some way, not only did Secretary 
Clinton make a mistake by having a private server, but that the 
insinuation is that she actually jeopardized secrets.
    And there's a memory gap here, because this committee is 
the one that had Mr. Comey in here, and he sat here for I don't 
know how many hours, but he answered every single question that 
every single member had. And that exhaustive investigation that 
Mr. Comey and the FBI did demonstrated that there was no 
evidence of either criminal violation and he found no evidence 
that the emails had been penetrated.
    So that's really the basis upon which a lot of us believe 
that this committee--and it's a great committee; all of us are 
proud to serve on it--is playing a role that's beyond oversight 
and investigation, is kind of advocacy in creating a sense of 
alarm among the American people as to whether something that is 
valuable information has been taken.
    Do you have any indication, Mr. Cooper, that any secret 
information has been taken by the Russians, the Chinese, or any 
other actor?
    Mr. Cooper. I have no indication. I'd simply refer you to 
the FBI report and their findings.
    Mr. Welch. All right. And in all your discussions with your 
colleagues, has anybody else indicated that they had a shred of 
evidence that any national security information of the United 
States was penetrated as a result of the Clinton emails?
    Mr. Cooper. I don't even think I've had any conversations 
to that effect.
    Mr. Welch. All right.
    And is it a big deal for people to change their devices--
iPads, iPhones, BlackBerrys? Is that somehow a big deal?
    Mr. Cooper. I think it's rather commonplace these days.
    Mr. Welch. All right. I thank you, and I yield back.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Before the gentleman yields back, if I 
can--I appreciate the kind comments, but let's remember, we got 
multiple people pleading the Fifth, afraid of criminal 
wrongdoing. We also have an FBI Director--one of the questions 
was, did you look at what Secretary Clinton said under oath? 
There are other equities that we have than the destruction of 
documents. He said he didn't look at any of that. And so that 
was also part of his testimony. He didn't even look at that 
part of it. That's the imperative for us to do our jobs.
    But I do appreciate the gentleman's--appreciate him 
yielding.
    We'll now recognize the gentleman from North Carolina, Mr. 
Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Mr. Cooper, thank you for your answers as we look into this 
further.
    You set up a server for the sole reason, as it relates to 
Ms. Clinton, so that she could use a domain name and have those 
private emails at her domain name served on that server. Is 
that correct?
    Mr. Cooper. Again, I set up two servers, both with the 
primary purpose of servicing President Clinton's personal 
office.
    Mr. Meadows. Right. But, in servicing Ms. Clinton, you put 
her domain name to service emails on those servers. Is that----
    Mr. Cooper. Correct.
    Mr. Meadows. Why did you not use another server like 1&1 or 
any of the other servers that are out there? Why would you not 
use those?
    You know, I have a device that has a domain name that I own 
that I get emails at, and it's much cheaper for me just to have 
a server that does that. Why would you not have done that?
    Mr. Cooper. First, we had the solution in place, so it was 
certainly an option. And, considering other options, I think 
that there were some appeals to this, in that the data was 
contained in one place. We knew where it was contained. It was 
physically in a secure location. And I think that some of the 
tools that you or I may employ today even with a personalized 
domain were not available at that time.
    Mr. Meadows. Well, in 2009 they were, because I was using 
them. And so they were available then.
    And so what you're saying is the reason to not have 
another--you're getting advice from your counsel.
    Will you hold the clock for a second?
    I guess you all are wanting to talk about----
    Mr. Shapiro. I'm sorry. Just to turn off the mike so 
there's no interference.
    Mr. Meadows. So the other aspect of this, Mr. Cooper, is 
you made a conscious decision to put her email address on this 
server to keep it from being viewed by other people that might 
have a server like 1&1 or anybody else? Is that your testimony?
    Mr. Cooper. I'm not sure that I was the decisionmaker. I 
was someone----
    Mr. Meadows. Who was? Was it Hillary Clinton?
    Mr. Cooper. I was in discussions primarily with Huma 
Abedin. I don't know if she was the decisionmaker----
    Mr. Meadows. So your testimony here today is that Huma 
Abedin said that she would prefer to have Ms. Clinton's email 
on a private server versus a server that was actually managed 
by someone else. That's your testimony.
    Mr. Cooper. My testimony is that that was communicated to 
me.
    Mr. Meadows. Okay. Well, that's illuminating, because if 
that's the case, what would be the potential reason for having 
it where you can see it and someone else couldn't see it?
    Mr. Cooper. This was, again, a server that was already in 
existence for the use of President Clinton's office. And I 
think it provided a convenient and what was intended to be a 
reliable solution for her personal email.
    Mr. Meadows. All right.
    So how many email addresses did she have?
    Mr. Cooper. She primarily used one email address at a time 
as far----
    Mr. Meadows. Yeah. How many did she have? Because I notice, 
in her emails, they have numbers behind it and everything else. 
So how many different email----
    Mr. Cooper. I believe if you count her AT&T email address 
as one, and then two others on the Clinton domain that I'm 
aware of.
    Mr. Meadows. Okay.
    And so, as you were managing this, I guess the other 
concern that I would have is, did you have a BlackBerry 
exchange server on your server?
    Mr. Cooper. Yes, there was.
    Mr. Meadows. So you had actually the push technology 
actually on your server.
    Mr. Cooper. Correct.
    Mr. Meadows. So when the discussion between Platte River 
and the attorneys and all of that happened in March, were you 
part of that discussion to clean and erase some of those emails 
from servers?
    Mr. Cooper. I was not at all part of those discussions.
    Mr. Meadows. All right. Is it commonplace when you have a 
discussion about erasing emails and archived emails to have an 
attorney on a discussion with a client? Is that common? I mean, 
I was in a business a long time; it never happened with me.
    Mr. Cooper. That's not something that I have the ability to 
comment on.
    Mr. Meadows. Well, you have an ability to comment on it. 
You may choose not to.
    Mr. Cooper. I have no opinion on that.
    Mr. Meadows. Well, have you ever been part of a 
conversation to erase emails where there's been an attorney 
there to advise you on the advisability of that? Have you 
personally?
    Mr. Cooper. I have----
    Mr. Meadows. Yes or no?
    Mr. Cooper. I personally have had no experience in that 
situation.
    Mr. Meadows. Okay. All right.
    So let me finish. You said that you're paying for your 
attorney's fees here.
    Mr. Cooper. Correct.
    Mr. Meadows. Have you ever been reimbursed or have you ever 
had any potential reimbursement for fees, for attorney's fees, 
from anyone other than your own personal accounts?
    Mr. Cooper. No.
    Mr. Meadows. Do you anticipate any reimbursement?
    Mr. Cooper. No.
    Mr. Meadows. All right.
    I yield back.
    Chairman Chaffetz. We'll now go to the gentleman from 
Georgia, Mr. Hice, for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    I want to begin by saying what I think is the feeling of 
many in this committee today, just how shameful it is that so 
many of our witnesses are no longer here. And, frankly, the 
appearance is they could care less about our national security 
and are less concerned about defending our country than they 
are in either being absent or pleading the Fifth.
    And, as was brought up earlier, they're willing to meet 
with and talk with others, those who had the potential of 
prosecuting them. Who knows what possible deals have been made 
in some of those discussions. But they refuse to meet with us. 
And it begs the question, what in the world are they hiding?
    And so I want to thank you, Mr. Cooper, for your courage 
and your willingness to be here with us today and to provide 
some answers. It means a great deal to us.
    Did Secretary Clinton at any time have more than one 
device?
    Mr. Cooper. I don't recall specifically her having more 
than one email device, but I have come to learn that at some 
point she had some iPad devices that she may have used 
simultaneously with the BlackBerrys.
    Mr. Hice. So there is a possibility she had more than one 
device at a time?
    Mr. Cooper. It's possible.
    Mr. Hice. You have referred to yourself many times as not 
being an IT expert. At any time did you consult cybersecurity 
experts when you were setting up her initial server?
    Mr. Cooper. The initial server, we consulted with Apple and 
their business solutions program to set up that server. And, of 
course, later, we consulted with Mr. Pagliano for those 
purposes.
    Mr. Hice. Okay. And from any department or agency in the 
government, did you consult with at all?
    Mr. Cooper. No, no consultation of that type.
    Mr. Hice. Okay.
    When you referred earlier to some of the hacks that were 
taking place, the brute force and so forth, with some degree of 
regularity, did you report those hacks or potential hacks to 
the FBI or Secret Service or any other agency?
    Mr. Cooper. As I mentioned earlier, when we first 
experienced some of the repeated failed log-in attempts, I 
reported them to the Secret Service.
    Mr. Hice. Okay. Did any of the--do you know if anything was 
done when it was reported? Did they come to investigate or 
search anything out?
    Mr. Cooper. The Secret Service reviewed some of the logs 
from the server and made some recommendations to Mr. Pagliano 
about the possible origins of those failed log-ins and some 
techniques he might use to mitigate that problem.
    Mr. Hice. Did any of the, be it agencies or other 
cybersecurity experts express any concern over this being a 
private server or use of private emails?
    Mr. Cooper. Not directly to me.
    Mr. Hice. Okay. So even when they came and did some 
investigation and some research, that question was never 
brought up to you.
    Mr. Cooper. Correct.
    Mr. Hice. How does BleachBit work? Are you familiar with 
that?
    Mr. Cooper. I'm not familiar with that.
    Mr. Hice. Well, it seems to me, Mr. Chairman and Mr. Cooper 
and everyone in this room and everyone in the country, for that 
matter, I mean, we know how absolutely dangerous it is, the 
potential dangers of information getting in the hands of our 
adversaries, and you've related that that possibility exists 
dramatically. In fact, Director Comey was right when he said 
that--I thought he was being very polite when he said this is 
extremely careless, what has taken place.
    And, unfortunately, Mr. Cooper, you're right in the middle 
of that. As the chairman brought up a while ago, we have 
nations coming after us, and here you are, standing up as a 
defense to try to keep security from being leaked out to 
professionals and countries.
    And the words of Director Comey have to be directed to you 
as well. This has been extremely careless, what's taken place. 
And your handling, frankly, of the IT infrastructure, even in 
the midst of admittedly not being an expert in this field, to 
me, shows absolute disregard for our national security.
    And, Mr. Chairman, I'm grateful for your continued 
commitment to pursue and to try to get to this. And those who 
refuse to answer our questions and plead the Fifth to protect 
their own hide as opposed to protecting our national security, 
again, it's shameful.
    But I thank you for pursuing this, Mr. Chairman, and I 
yield back.
    Chairman Chaffetz. The gentleman yields back.
    We'll now recognize the gentleman from Texas, Mr. Hurd.
    Mr. Hurd. Thank you, Mr. Chairman.
    Mr. Cooper, thank you for being here. I know you've said 
many times that you're not an expert in computer security, so I 
won't try to get too detailed.
    My first question is, have you ever worked in the Federal 
Government before?
    Mr. Cooper. Yes. I worked in the White House in 2000-2001.
    Mr. Hurd. Were you involved in handling classified 
information?
    Mr. Cooper. No.
    Mr. Hurd. Did Mr. Pagliano work for you?
    Mr. Cooper. I'm sorry, can you clarify what you mean, 
``work for me''?
    Mr. Hurd. So you were responsible for setting up these 
servers. Is that correct?
    Mr. Cooper. I oversaw the setup of these servers.
    Mr. Hurd. So who was your boss when you were setting up the 
server?
    Mr. Cooper. President Clinton was my boss.
    Mr. Hurd. And when you set up the servers, you reached out 
to the services of Mr. Pagliano at some point. Is that correct?
    Mr. Cooper. Correct.
    Mr. Hurd. And so was he your consultant?
    Mr. Cooper. Yes, he was a consultant.
    Mr. Hurd. Was he working at State Department at the time?
    Mr. Cooper. At the initial setup, he was not working at the 
State Department.
    Mr. Hurd. While he was working at the State Department, was 
he involved in providing consultative services to your 
organization?
    Mr. Cooper. Yes.
    Mr. Hurd. Is that normal?
    Mr. Cooper. I have no basis to judge that.
    Mr. Hurd. So, as the person responsible for setting up 
these servers, did you ever engage a third party to do stuff 
like technical vulnerability assessments or penetration 
testing?
    Mr. Cooper. I left that responsibility to Mr. Pagliano.
    Mr. Hurd. And Mr. Pagliano was responsible for these 
servers from the beginning of the creation of these servers?
    Mr. Cooper. He was not responsible for the Apple server. He 
was responsible from the transition of the Apple server to what 
we called the Pagliano server and through the duration of the 
Pagliano server.
    Mr. Hurd. And so the Pagliano server was backed up to an 
external hard drive between May 2009 and June 2011. Is that 
correct?
    Mr. Cooper. From my understanding.
    Mr. Hurd. And we have a report from the FBI that states 
that you would periodically delete these records maintained in 
the backup as disk space ran out. Is that correct?
    Mr. Cooper. I have no knowledge of how that procedure 
operated.
    Mr. Hurd. So you weren't responsible for that part?
    Mr. Cooper. Correct.
    Mr. Hurd. Who was?
    Mr. Cooper. Mr. Pagliano.
    Mr. Hurd. So, when the decision was made to set up an 
independent server, were you involved in that conversation? I 
know you were talking about this briefly with my colleague from 
North Carolina.
    Mr. Cooper. Yes.
    Mr. Hurd. And why was the decision made to not use a 
commercial service versus doing something yourself?
    Mr. Cooper. Again, the initial setup of both servers was in 
consideration of a small group of users from President 
Clinton's office. This was a solution that we felt was an 
appropriate solution that we were trying. As you can tell by 
the fact that we transitioned pretty quickly from the Apple 
system to another system, we were moving to a more robust piece 
of equipment. That----
    Mr. Hurd. So you've said yourself--at some point, did you 
raise your hand and say, hey, guys, I don't have the technical 
expertise to do this, maybe we should have somebody else?
    Mr. Cooper. I was never in the position to be the technical 
expert on either server.
    Mr. Hurd. So there's been a lot of conversation about 
whether or not this system has been hacked and brute force, you 
name it. Has the FBI, to your knowledge, investigated whether 
there was indeed--was there a forensic investigation on the 
servers to see whether there was evidence of an attack?
    Mr. Cooper. I would refer you to the FBI for that.
    Mr. Hurd. Were you ever asked questions about this? Did you 
all do an exhaustive, you know, review of whether or not you 
had records of data leaving the network? Were you monitoring 
whether data was leaving the network?
    Mr. Cooper. I would refer you to Mr. Pagliano or the FBI 
for that. I have no knowledge.
    Mr. Hurd. Were you ever told or did you ever suspect 
classified information was being emailed to and from the 
Secretary?
    Mr. Cooper. No.
    Mr. Hurd. Nobody ever brought that up with you or expressed 
a concern?
    Mr. Cooper. No.
    Mr. Hurd. Interesting.
    Do you think that common practices for good cyber hygiene 
was being used in the development of these servers?
    Mr. Cooper. I'm not wholly familiar with what common 
practices are, but I can say that I believe some common 
practices were likely used.
    Mr. Hurd. And who were you using for guidance on what was 
good----
    Mr. Cooper. Mr. Pagliano.
    Mr. Hurd. --digital system hygiene? Mr. Pagliano?
    Mr. Cooper. And Apple on the original device.
    Mr. Hurd. Now, you've said Apple a few times. Is this like 
you went into the help desk at the mall? Like----
    Mr. Cooper. We had an agreement with Apple's business 
service program at the time that spec of the equipment that we 
were going to use, set up the system, and installed it.
    Mr. Hurd. Excellent.
    Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We're now going to go to the gentleman from Alabama, Mr. 
Palmer, for 5 minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    Ms. Abedin and Ms. Hanley indicated the whereabouts of 
Clinton devices would frequently become unknown once she 
transitioned to a new device. What about these other devices? 
Did you make any inquiry about any of the missing devices to 
make sure they were properly secured and the data properly 
recorded?
    Mr. Cooper. I can say with some certainty, whenever there 
was a transfer from one device to the next, there was always 
the goal and the process to transfer all the data from the 
previous device to the new device.
    You're specifically, I believe, asking about what happened 
to the devices that I know that I personally did not dispose 
of. I can't speak to that. I believe that, you know, I may have 
asked those who were in the process of doing that for Secretary 
Clinton to also properly dispose of them by rendering them 
unusable.
    Mr. Palmer. So you were responsible for setting up the 
servers and these devices. Is that----
    Mr. Cooper. Mr. Pagliano set up the Pagliano server. For 
someone to transfer to a new BlackBerry device, it simply 
requires someone to tell the server that there's a limited 
period of time for a user to log in with a one-time username 
and password----
    Mr. Palmer. But when you transitioned from one device to 
another, did you have any responsibility in handling the device 
that was no longer being used? What did you do with that? I 
understand you did something with some devices.
    Mr. Cooper. On occasion, I was the person who made the 
transfer. And when I was complete with backing up the 
information, ensuring that it was on the new device, wiping the 
old device, I rendered them unusable in other manners, yes.
    Mr. Palmer. Are you aware that there's a missing laptop and 
external storage device?
    Mr. Cooper. I'm aware of that, based on the reading of the 
FBI report.
    Mr. Palmer. So you do know about it. Do you know that the 
report was that it was lost in the mail?
    Mr. Cooper. That's as much as I know.
    Mr. Palmer. That's as much as you know. You don't know--do 
you know who mailed it?
    Mr. Cooper. I have no details about that.
    Mr. Palmer. So, if you don't know who mailed it, you don't 
know who it was sent to.
    You are, as Mr. Hice pointed out, aware that Director Comey 
described Mrs. Clinton's use of a personal server and her 
handling of classified material as extremely careless. You are 
aware that he said that? You read the FBI report?
    Mr. Cooper. Yes, I'm aware of the report.
    Mr. Palmer. In your handling of Mrs. Clinton's servers, did 
you have any concerns that her use of a personal server and the 
use of outdated technology on her cellphones might be a 
problem?
    Mr. Cooper. I viewed her use as personal use of a 
BlackBerry and of the server and that we kept up to date over a 
period of time.
    Mr. Palmer. You've been around the Clintons for a pretty 
good period of time, haven't you?
    Mr. Cooper. Yes.
    Mr. Palmer. And you're aware of the highly sensitive 
material that Mrs. Clinton, as Secretary of State, was 
handling, that would pass through her communications devices 
and her servers through her email. You certainly had to be 
aware that there was sensitive information.
    Mr. Cooper. I was generally aware that Secretary Clinton 
encountered sensitive information, sure. How that was 
transmitted to her was not something that I was specifically 
aware of.
    Mr. Palmer. But in your disposal of these devices--and you 
said you made sure they were wiped and you took other measures 
to dispose of them--did you receive any instructions or any 
training about making sure that the data on those systems were 
properly recorded? Did anyone talk to you about that?
    Mr. Cooper. I had no specific instructions around that.
    Mr. Palmer. Would you consider your handling of these 
devices as possibly careless?
    And I ask you that--and I think you've been a good witness. 
I appreciate the fact that you stayed. But, in listening to 
Mrs. Lummis' questions and your lack of knowledge of some of 
the cyber technology, the cyber protection technology and 
things like that, my concern is that it's almost an atmosphere 
of indifference.
    And I really hope that's not the case, because this is 
not--although some of our colleagues on the other side of the 
aisle have tried to make this about her candidacy, it's really 
about our national security and how we handle things going 
forward. And that's the great concern that I think--really, the 
prevailing concern that this committee has, is that we make 
sure that we don't put our national security at risk, we don't 
put or intelligence officers at risk.
    And that's my big concern, and particularly with this 
missing laptop that apparently no one's made an effort to 
recover.
    I thank you, Mr. Chairman. I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We'll now recognize the gentleman from North Carolina, Mr. 
Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    I'd like to start just by making a couple statements. A lot 
of times, we're hearing some back-and-forth of really who to 
believe. I found it interesting that I believe there's three 
different times today that our friends to my right have not 
been necessarily truthful in some of the accusations they have 
made.
    Number one, I believe that one of the members talked about 
this as some kind of relentless pursuit of Republicans trying 
to damage Secretary Clinton's Presidential chances or hopes, 
and, at the same time, this is some kind of photo op.
    Well, let me remind everybody, if we could just pause for a 
moment and remember what Director Comey said, he said this was 
an investigation not caused by Congress but, rather, the 
inspector general, from the intelligence they were able to 
gather. So let me just put that on the record, making sure this 
has not been Republican-driven, this was the inspector general 
of the FBI.
    Another thing they've tried to make a case for is this is 
some kind of Republican witch hunt. I specifically asked 
Director Comey did he feel this way; he said, no, he not. In 
fact, he said it was not a witch hunt.
    And then, today, we hear our Democrat friends say that 
there is no evidence that emails were hacked. Well, on January 
the 9th, 2011, Mr. Cooper, you became aware of an attempt to 
hack Hillary Clinton's private email server. Is that correct?
    Mr. Cooper. I believe you're referring to an email that was 
in the FBI report. And as I--you may not have been here earlier 
in the hearing. I said that I was using the world ``hacked'' 
colloquially. So I thought people were understanding what this 
was was a series of failed log-in attempts. And one of the 
earliest occurrences of this--the way that we managed to put an 
end to them was to shut down the server for very brief periods 
of time.
    Mr. Walker. Yeah, I was here earlier and heard you share a 
little bit about that. Do you agree that there is no evidence 
that this server could have been hacked?
    Mr. Cooper. I can, to the best of my knowledge, just refer 
you to the FBI report, who did the forensic analysis on this.
    Mr. Walker. But you don't have kind of a take on it, even 
though you were----
    Mr. Cooper. I have no knowledge that there was a successful 
hack on the----
    Mr. Walker. Are aware of how many times the Russians and 
the Chinese try to attack us on a daily basis?
    Mr. Cooper. I am not aware of that.
    Mr. Walker. Not aware of that?
    And make sure, this was on her private server. Is that 
correct? Not a State Department or a government-protected 
server. Is that correct?
    Mr. Cooper. Correct. This was a private server.
    Mr. Walker. Yeah.
    It's just--it's interesting that if it wasn't to what you 
consider maybe a hack status--you emailed her twice that day. 
How often did you normally email Mrs. Clinton in a given day?
    Mr. Cooper. I believe the email was to Ms. Abedin. Again, 
this was one of the first or second occurrences that something 
like this was happening. I was just making her aware more that 
the email services might be off line for a few moments----
    Mr. Walker. Sure.
    Mr. Cooper. --rather than----
    Mr. Walker. In the weeks before, how many times did you 
send an email that was in the same reference?
    Mr. Cooper. I don't recall ever sending a great line with 
those emails.
    Mr. Walker. So this was the first time that you'd ever sent 
something like that?
    Mr. Cooper. I can't say specifically it was the first time, 
but----
    Mr. Walker. Pretty rare, though, you would think?
    Mr. Cooper. Yes.
    Mr. Walker. Okay. Yet, at the same point, you're now 
describing it that ``hack'' was probably not the best 
description of it.
    Mr. Cooper. Correct.
    Mr. Walker. But you were concerned?
    Mr. Cooper. I was mostly, in the email, making her aware 
that I was shutting down the server for a brief period of time.
    Mr. Walker. Were there any other times or attacks that 
you're aware of that you felt like that put the server in a 
vulnerable position while Ms. Clinton was in possession of the 
server? Any other times?
    Mr. Cooper. As there was an increase in the failed log-in 
attempts, we made the Secret Service aware. And they reviewed 
the logs and made some recommendations to----
    Mr. Walker. Have you got a number, about roughly how many 
times it might have happened, all these failed email attempts 
or log-in attempts?
    Mr. Cooper. I can't give you a specific number.
    Mr. Walker. Less than a thousand? More than a thousand?
    Mr. Cooper. Less than a thousand.
    Mr. Walker. Okay.
    In just closing here, and I'll yield back the rest of my 
time here, you might have mentioned this earlier, as well, in 
having to do some questioning right outside here, but can you 
remind me again how you were compensated? Can you go into that, 
to tell me what direction--who compensated you for all this?
    Mr. Cooper. I worked for the Clintons for 15 years and was 
compensated in a variety of ways over that period of time 
depending on what my activities were. I worked for President 
Clinton, helping him write his memoirs and two subsequent 
books.
    Mr. Walker. Yeah.
    Mr. Cooper. I traveled the world with him. At points, I 
supported the foundation. So I had varying sorts of income over 
the----
    Mr. Walker. Okay. It's a little gray area there, if I may 
be so bold. When you say you were compensated in a variety of 
ways, did that include being paid with cash?
    Mr. Cooper. No.
    Mr. Walker. Okay. So this was just like, hey, a personal 
check from Bill Clinton, here you go, or----
    Mr. Cooper. Yes, the taxable--you know, I was a full 
employee of Bill Clinton.
    Mr. Walker. Well, what was the title on--how were you 
getting paid with that? Did it say Bill and Hillary? I mean, 
what--how was that?
    Mr. Cooper. Yes. There were multiple payrolls. There was a 
Clinton household payroll. Later, there was a Clinton Executive 
Services Corporation payroll.
    Mr. Walker. But there were personal checks as well?
    Mr. Cooper. They were, through an employer services company 
that managed the payroll, yes.
    Mr. Walker. Okay. All right. Thank you.
    Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We'll now recognize the gentleman from Oklahoma, Mr. 
Russell, for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    And thank you, Mr. Cooper, for your patience and also your 
answers that you've provided the panel today.
    You alerted folks to possible breach attempts and were 
concerned, obviously, about the security, as we've heard in 
your testimony today.
    In January 2013, according to the FBI reports, a tour user 
logged in to a staffer of President Clinton's account on the 
Pagliano server and browsed email and folders of that person's 
account.
    Were you aware of that breach? That's a little different 
than what was just stated to Mr. Walker.
    Mr. Cooper. I was not aware of that breach till I read it 
in the same account where you read it.
    Mr. Russell. Did it cause you concern?
    Mr. Cooper. Once I read it?
    Mr. Russell. Sure.
    Mr. Cooper. Sure.
    Mr. Russell. In the spring of 2013, which would've been 
proximate to this same thing, according to the FBI, Sidney 
Blumenthal's AOL account was hacked by Guccifer, and Mrs. 
Clinton's email exchange with Mr. Blumenthal was made public. 
Were you aware of that breach?
    Mr. Cooper. I was aware of that.
    Mr. Russell. What was your response to these breaches?
    Mr. Cooper. At that point in time, I was transitioning out 
of any role or responsibility with the server as the various 
teams were selecting--it was ultimately Platte River Network to 
take over the email services. And I don't know that I had any 
sort of direct response.
    Mr. Russell. Did you believe that there was sensitive 
information? Certainly, it would qualify as very private, being 
the position that Mrs. Clinton held.
    Mr. Cooper. Certainly private information, concern that 
that--you know, you would have, naturally, concern that that 
information was properly backed up and secured.
    Mr. Russell. And the FBI reported finding email marked 
``Secret'' on the PRN server. And you assisted with the 
transfer of data to the PRN server. Were you aware of Secret or 
sensitive emails on the servers you worked on?
    Mr. Cooper. I did not actually assist in the transfer to 
the PRN servers, and nor was I----
    Mr. Russell. Even with the missing laptop, which you didn't 
lose but apparently it got lost after PRN received it?
    Mr. Cooper. Yeah, I have no knowledge of that.
    Mr. Russell. But you did have knowledge of providing a 
laptop to the----
    Mr. Cooper. Provided a laptop and instruction on how to 
download emails, yes.
    Mr. Russell. Now, Mr. Cooper, you conveyed to I believe it 
was Mr. Meadows--and we appreciate the insight you have given 
us--that Huma Abedin assisted in arrangements on the use of the 
private server when all of this was being set up. Is that 
correct?
    Mr. Cooper. Yes.
    Mr. Russell. Did you create or did Huma Abedin or Cheryl 
Mills or Jacob Sullivan have a user account on the private 
server?
    Mr. Cooper. Huma Abedin had an account.
    Mr. Russell. Huma Abedin did have an account.
    And, Mr. Cooper, are you aware that in the FBI report it 
states on page 10 that Mrs. Clinton's immediate aides, to 
include Huma Abedin, Cheryl Mills, and Jacob Sullivan, told the 
FBI that they had no knowledge of the existence of a private 
server until after Mrs. Clinton's tenure at State? But that 
would've not been true, would it?
    Mr. Cooper. I can't speculate on what their comments were.
    Mr. Russell. Well, I know you can't speculate on what their 
comments were. But you just stated that Ms. Abedin knew of the 
server, she had an account on the server. So how is it possible 
that she could not have known about a server while Mrs. Clinton 
was at State?
    Mr. Cooper. I can't speak to her recollection of when she 
knew, but she was--I can tell you----
    Mr. Russell. But that would be contrary to the facts, 
wouldn't it?
    Mr. Cooper. I can just tell you that I know that she had an 
account on the server and she was aware and using an account on 
the server.
    Mr. Russell. At the time that Mrs. Clinton was--okay. Thank 
you for establishing those facts for us. We appreciate that.
    And BlackBerrys, we know that there was preferences on 
functions and systems and going back and forth, a lot of 
different devices. And we also know that there was one 
BlackBerry that was provided from State, but they sent it with 
a warning that, look, all of this could be Freedom of 
Information Act; therefore, you know, go in with this 
understanding. And so they elected to not use that BlackBerry.
    There were other BlackBerrys used associated with the 
server, which we have determined. How were they obtained? Were 
they third-party-obtained? Obviously, it wasn't through State, 
because there was only one that we know about. Maybe there were 
more.
    Mr. Cooper. I can't speak to them being obtained by the 
State Department. I have no----
    Mr. Russell. Okay. Were they obtained through a third 
party? Or how were they----
    Mr. Cooper. Other BlackBerrys were typically, to the best 
of my recollection, just obtained from the service provider, 
AT&T, who we had an account with to service those phones.
    Mr. Russell. Okay. So they weren't obtained by a third 
party like eBay, Amazon, something of that nature?
    Mr. Cooper. Not to my knowledge.
    Mr. Russell. Okay.
    And, with that, my time has expired. Thank you, Mr. 
Chairman.
    Mr. Cummings. Mr. Chairman?
    Chairman Chaffetz. Yes.
    Mr. Cummings. Just one question of the gentleman.
    You said that there was--you said that there was an email 
marked ``Secret,'' and we just wanted to know what that was, 
because we never saw that. We'd just like to see the document.
    Chairman Chaffetz. I'll let you work that out with Mr. 
Russell.
    We'll now recognize----
    Mr. Cummings. I wanted the record to be clear if there's 
not one.
    Chairman Chaffetz. I'll now recognize Mr. Grothman of 
Wisconsin.
    Mr. Grothman. Yeah. Thanks for coming over.
    I want to nail down a little bit more, a followup on what 
Representative Walker said. You first became involved with 
then-President Clinton in 1999? That was your first involvement 
with the Clintons?
    Mr. Cooper. Yes.
    Mr. Grothman. Okay. At the time you were an aide--so, at 
that time, you were paid by the United States Government?
    Mr. Cooper. In '99, I was an intern still. In 2000, I 
became a U.S. Government employee.
    Mr. Grothman. Wow. What being an intern will lead to, Huh? 
Okay.
    And then when President Clinton left office, from then 
until today, you say you worked for the Clintons. But was it, 
like, the Clintons' personal for 2 years, their foundation, or 
the Clinton Executive Services Corporation? Who was cutting the 
checks from time to time?
    Mr. Cooper. The organizations evolved over a period of 
time, as I think was only natural as different parts of the 
operation grew and shrank. For a period of time, I was in the 
transition office from President Clinton for the first 6 months 
out of office. I then worked for him in support of his efforts 
to write his memoir for almost 4 years.
    Mr. Grothman. Okay. So then it was Bill personally?
    Mr. Cooper. In combination with the book publisher. And 
then, following that, worked on what was the Clinton household 
payroll for a series of years.
    Mr. Grothman. Okay. Could you get us a list? Just because I 
want to kind of see, you know, where you were involved in the 
thing. I hope it's not too much bother. From when Bill Clinton 
left office until today, who were you working for? Do you see 
what I am saying? Like, when you get the W-2----
    Mr. Cooper. Sure. And then until I left in 2013.
    Mr. Grothman. Right, right, right. Were you getting, like, 
W-2s or 1099s, or how were they doing it?
    Mr. Cooper. Yeah, I can have my attorneys prepare something 
for you.
    Mr. Grothman. Yeah. I would like to have that.
    Next question: When you interacted with the Clintons, did 
you usually hear from Bill directly? Hillary directly? Huma? 
Who was the person you usually heard from?
    Mr. Cooper. I primarily worked for President Clinton and 
worked with him on a day-to-day basis.
    Mr. Grothman. Okay. Did you ever get emails from Huma or 
Hillary?
    Mr. Cooper. Certainly.
    Mr. Grothman. Okay. Like, once a month? Once a week?
    Mr. Cooper. I couldn't tell you what the frequency was. 
Often, it was coordination between the family to organize their 
schedules.
    Mr. Grothman. Okay. Did you have any coordination with the 
foundation, or did the foundation ever employ you?
    Mr. Cooper. Yes.
    Mr. Grothman. Okay. When you heard about the foundation, 
who was your contacts there? I mean, who was your contact with 
the foundation? Bill again?
    Mr. Cooper. Yeah, over time, many different people worked 
for the foundation. Primarily, my role with the foundation was 
supporting President Clinton's activities with the foundation.
    Mr. Grothman. Okay. Did you ever hear from Huma or Hillary 
about the foundation?
    Mr. Cooper. At varying times, they participated in 
foundation-related events over the lifetime of the foundation 
from when we left the White House to----
    Mr. Grothman. Okay. When did the foundation kick in? I 
mean, I can't remember when that thing began.
    Mr. Cooper. You know, officially, the foundation was 
launched as we were leaving the White House in support of the 
Presidential library and developed programs over time from that 
period.
    Mr. Grothman. Before it became the charitable institution 
it eventually became.
    Mr. Cooper. Correct.
    Mr. Grothman. Okay.
    Did you receive emails from Secretary Clinton or Huma 
connected to State Department business?
    Mr. Cooper. Not that I recall. Secretary Clinton on 
occasion had forwarded me documents to print.
    Mr. Grothman. Okay. Usually, when they contacted you, her 
or Huma, it would be foundation business or personal business?
    Mr. Cooper. I would say personal business.
    Mr. Grothman. Can you give me an example of personal 
business?
    Mr. Cooper. Asking where President Clinton was, if he was 
available, something that may have been going on in their 
household.
    Mr. Grothman. Okay.
    I'll tell you what I'll do. I'll leave the remainder of my 
time to the chair. But I would like--I would like to see, you 
know, a chronology of, you know, this is who I got the W-2s 
from in 2002, this in 2003, this in 2004.
    I'll give you one more question. Was it usually just one 
person cutting the check each month? Were there months in which 
you got a check from Bill personally and the foundation?
    Mr. Cooper. It varied over different periods of time.
    Mr. Grothman. Okay.
    Chairman Chaffetz. I thank the gentleman.
    Mr. Cooper, who are you employed by now?
    Mr. Cooper. I have my own consulting firm and have a 
variety of clients that I work with to help them with their 
thought leadership, to identify----
    Chairman Chaffetz. Does that include any of the array of 
Clinton entities?
    Mr. Cooper. No, it does not involve any current Clinton 
entities.
    Chairman Chaffetz. Or people or anything like that?
    Mr. Cooper. People? If you could clarify. I'm sorry. It 
does not involve any of the Clintons, no.
    Chairman Chaffetz. Okay. Thank you.
    We'll now recognize the gentlewoman from New York, Mrs. 
Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman.
    I'd like to begin by quoting Bernie Sanders. He famously 
said in one of the debates, he said, ``Enough. Enough of these 
emails.'' And I think that those of us that have sat through 
this hearing today can say the same.
    We're seeing a predictable pattern from the Republican 
Party, where they come out and make all kinds of accusations 
that I believe are politically motivated. They make all kinds 
of accusations against Secretary Clinton. And they claim--they 
make really reckless ones that are criminal accusations, and 
then they call for an investigation. And then the investigation 
happens, and what comes out of the investigation does not 
support the accusations. And then they move on to the next 
email, quote, attack that they put forward.
    And this happened, we saw it with the discredited Benghazi 
hearings and accusations and reports and reviews, where the FBI 
and other independent investigators found no evidence, none 
whatsoever, of a crime with the emails. And so what do we have 
again? Another accusation claiming email criminal activity.
    Now, this latest one is that Secretary Clinton and her top 
aides ordered the destruction of emails to conceal these emails 
from investigators. For example, my good friend--and he really 
is a good friend--Representative Meadows, I heard him on 
national television, where he claimed that the emails were 
deleted as a result of, and I quote, ``a directive from the 
Clinton campaign.'' There's no evidence to support this 
accusation.
    Chairman Chaffetz made a similar claim in his criminal 
referral to the U.S. attorney on September 6th, claiming that 
Secretary Clinton's attorneys, Kendall and Mills, issued this 
order during a call with Platte River Networks in March 2015. 
But these claims were already investigated by the FBI, and 
guess what? There was not any evidence to support these claims.
    And the FBI summary explains that after Secretary Clinton's 
attorneys finished producing her work-related emails to the 
State Department she no longer needed her remaining personal 
emails.
    Well, the FBI is there for a reason. They are there to 
investigate, to make determinations, and to come forward with 
conclusions. And they've concluded that there's no evidence. So 
why are we here? Why are we trying to contradict what the FBI 
found?
    And the bottom line is that the FBI, based on their 
reviews, based on the professionals that they have looking at 
this, they came forward and said--and Director Comey actually 
said it right before this committee. He testified, ``We do not 
find any evidence of evil intent and intent to obstruct 
justice,'' end quote. This is the head of the FBI, relying on a 
complete investigation of his personnel on this issue. He also 
said, and I'm quoting him again, ``We did not find evidence to 
indicate that they did anything to try to erase or conceal 
anything of any sort.'' So the FBI has already made their 
determination.
    So my one question to you, Mr. Cooper: In all of your work 
and your understanding, your experience with all of this, did 
you see anything that contradicts the conclusion of the FBI 
professionals and Director Comey, who testified before this 
Congress he saw no criminal activity, he saw no abuse of 
justice. Did you see anything to contradict his conclusion?
    Mr. Cooper. The facts, to my knowledge, no.
    Mrs. Maloney. No. Okay.
    So I just want to remind everyone that the FBI, we're here 
for 1 day, but they conducted a yearlong investigation and 
concluded that no charges were appropriate. And they had, I 
would say, an all-star team. We have very good investigators 
here on our committee, but I would say a yearlong investigation 
by the FBI with their all-star teams, that they are 
professionals, they're trained professionals, and they came 
forward and said after that there was no charges, no charges 
were appropriate.
    So I just want to join Bernie Sanders in saying enough is 
enough. And we've had investigations after investigation, 
accusation after accusation. And now we have another accusation 
after the investigation was completed by the FBI, which has an 
unmatched record in protecting our citizens, preserving the law 
of this country, and preserving the integrity of government.
    And I would say I rest my case. I listened carefully to 
Director Comey----
    Chairman Chaffetz. The gentlewoman's time has expired.
    We'll now----
    Mrs. Maloney. I was just warming up, Mr. Chairman.
    Chairman Chaffetz. The gentlewoman yields back.
    We'll now recognize the gentleman, Mr. Smith, who's the 
chairman of the Science, Space, and Technology Committee. We're 
pleased to have him here today. And we're thankful for the 
close working relationship we have with the committee. We now 
recognize him.
    Mr. Smith of Texas. Thank you very much, Mr. Chairman, for 
inviting me to attend today's hearing to examine the security 
of former Secretary of State Hillary Clinton's private server.
    Secretary Clinton's unique server and email arrangement is 
of particular importance both to your committee and to the 
Science, Space, and Technology Committee. The Science Committee 
has a responsibility to examine ways in which executive branch 
departments and agencies and private entities can improve their 
cybersecurity practices.
    As part of the Science Committee's ongoing investigation, I 
have issued subpoenas to three of the companies that performed 
maintenance and security work on Secretary Clinton's private 
server. Two of the companies who received lawfully issued 
subpoenas for information related to work they performed for 
former Secretary Clinton, Platte River Networks and SECNAP, 
Inc., have refused to produce responsive documents. Both 
companies have purposely misinterpreted the plain language of 
the subpoena, and both companies have stated that they do not 
have responsive materials, which is demonstrably false.
    Unfortunately, these companies' decisions to obstruct the 
committee's investigation and defy a lawfully issued subpoena 
continues a Clinton habit of secrecy rather than transparency. 
In fact, just this morning--and this may be of interest to the 
gentlewoman from New York who just spoke--SECNAP's counsel 
confirmed to my staff that the Clintons' private LLC is 
actively engaged in directing their obstructionist responses to 
congressional subpoenas.
    This is a clear obstruction of justice. Americans deserve 
to know the truth, which is now being blocked by the Clinton 
organization.
    One of the companies, Datto, did provide responsive 
materials to the subpoena. These documents have shed light on 
the unique arrangement undertaken by Secretary Clinton to set 
up a private server. This includes the lack of even basic 
cybersecurity measures applied to the information stored on the 
server, such as encryption. It is inconceivable that a 
Secretary of State, who is entrusted with our national security 
secrets, would not take every available step to safeguard our 
Nation's classified information.
    The information sought through the investigations of the 
Science Committee, the Oversight and Government Reform 
Committee, and Senator Ron Johnson of the Senate Homeland 
Security and Governmental Affairs Committee is crucial in 
determining the degree to which our national security was 
unprotected and perhaps endangered.
    I look forward to continuing to work with you, Mr. 
Chairman, and appreciate all the good work you have done.
    And if it's all right, I have a couple questions for Mr. 
Cooper.
    Chairman Chaffetz. Yes.
    Mr. Smith of Texas. Mr. Cooper, first of all, thank you for 
being here today and being willing to answer questions. You 
deserve credit for being willing to do that, and that compares 
to those who refused to appear today and answer questions and 
apparently are not interested in helping us try to find out the 
truth.
    Let me ask my first question, which is that, as you heard 
me say a minute ago, we heard this morning that SECNAP's 
counsel has said that the Clinton Executive Services 
Corporation, in effect, is obstructing at least my committee's 
subpoena. Do you think this is standard practice for the 
Clinton Executive Services Corporation?
    Mr. Cooper. I'm not in a position to comment----
    Mr. Smith of Texas. I'm sorry?
    Mr. Cooper. I'm not in a position to comment on that or 
have any knowledge that that's the situation.
    Mr. Smith of Texas. Have you seen any other instances where 
SECNAP has tried to prevent information from getting to a 
committee?
    Mr. Cooper. I'm not aware of----
    Mr. Smith of Texas. One way or the other?
    Mr. Cooper. I'm not aware at all.
    Mr. Smith of Texas. Okay.
    Many of the documents provided by Datto, Inc., include 
communications with Platte River Networks. Should Platte River 
Networks have information in its possession about its work 
related to former Secretary of State Hillary Clinton's server?
    Mr. Cooper. Again, my interaction with Platte River 
Networks was simply handing over some usernames and passwords, 
and that was the totality of the interaction that I've had with 
them. I've never had any interaction with them beyond that or 
with Datto.
    Mr. Smith of Texas. And can you say whether or not they are 
likely to have information about the server or not?
    Mr. Cooper. I have no knowledge.
    Mr. Smith of Texas. Okay.
    What information, again, have you handed over to them?
    Mr. Cooper. Sir, I handed over some usernames and passwords 
to them at the beginning of the transition process.
    Mr. Smith of Texas. Okay. Thank you.
    Thank you, Mr. Chairman. That completes my questions. And, 
again, I appreciate the opportunity to be a part of your 
committee's hearing today.
    Chairman Chaffetz. Well, thanks, Chairman. We do appreciate 
it.
    I will now recognize the gentleman from Georgia, Mr. 
Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    And, Mr. Cooper, thank you for being here, and thank you 
for staying as long as you have.
    Mr. Cooper, in Secretary Clinton's New York and Washington, 
D.C., homes, did she have a personally owned desktop computer 
inside the secure areas, or the SCIFs?
    Mr. Cooper. We discussed earlier, there were Apple iMacs in 
both homes that I know were in the rooms that became SCIFs 
predating their time becoming SCIFs.
    Mr. Carter. How do you know that?
    Mr. Cooper. Before they became SCIFs, they were both 
offices which I had the occasion to work out of.
    Mr. Carter. And you said, what kind of computers were they?
    Mr. Cooper. Apple iMacs.
    Mr. Carter. Who was able to open them?
    Mr. Cooper. They were there for the purpose of staff 
visiting the home or the staff that worked in the homes.
    Mr. Carter. Was it ever left unsecured?
    Mr. Cooper. ``Unsecured'' meaning? I'm sorry.
    Mr. Carter. Just left out where someone could get to it?
    Mr. Cooper. These were personal computers in their homes 
secured by the Secret Service.
    Mr. Carter. And who did you say had access to it?
    Mr. Cooper. The Clinton family and their staff.
    Mr. Carter. And their staff.
    Let me ask you about two occasions in 2011 where you were 
concerned that someone was trying to hack into Hillary 
Clinton's private email server. What made you concerned that 
someone was trying to hack in, as described in the email you 
sent to Huma Abedin?
    Mr. Cooper. I think my concern at the time was--I was 
colloquially using the word ``hack'' to describe what was a 
multiple failed log-in attempt on the server. And what I was 
really conveying to her, less so the concern of that activity 
and more so that we were dealing with it by shutting down the 
server for a period of time and so she should expect her email 
to be off-line for a period of time.
    Mr. Carter. So later on that day, you email Ms. Abedin, you 
said there was a second attempt. In fact, you said, ``We were 
attacked again, so I shut the server down for a few minutes.''
    Mr. Cooper. Yes. Again----
    Mr. Carter. Help me out. Whenever I think of an attack on a 
computer, I think of somebody who's trying to get in 
unauthorized.
    Mr. Cooper. I understand. I was using very colloquial 
language.
    Mr. Carter. Very colloquial language.
    Mr. Cooper. Correct.
    Mr. Carter. So that's not what you meant when you said 
``attack''? That someone was----
    Mr. Cooper. These were multiple failed log-in attempts on 
the server.
    Mr. Carter. But wouldn't you describe that as someone who's 
trying to get in unauthorized?
    Mr. Cooper. I would describe it as someone who was trying 
to get in unauthorized, yes.
    Mr. Carter. So was it the same--was it the same attempt as 
was the previous day?
    Mr. Cooper. I can't recall whether it was the same attempt 
or be able to determine whether it was the same type of 
attempt.
    Mr. Carter. Did you shut the server down on that day in 
January of 2011?
    Mr. Cooper. To the best of my recollection, based on the 
emails that you are describing, yes.
    Mr. Carter. What good would that have done? What was the 
purpose in doing that?
    Mr. Cooper. My understanding was that these were automated 
attempts, and once they did not ping a server on the other 
side, they would stop. And that seems to be the practice of 
what happened.
    Mr. Carter. We've had reports and we've read numerous 
reports that Mr. Pagliano arranged for you to receive 
notifications when there were attempted hacks on the server. 
Did you receive any notification of any attempted attacks on 
the server?
    Mr. Cooper. What Mr. Pagliano had set up were alerts to 
alert me if there were any failed log-in attempts, which could 
be from users or nonusers.
    Mr. Carter. Okay. I'm struggling here. Tell me the 
difference between a failed log-in attempt and a hack.
    Mr. Cooper. So a failed log-in attempt is very simply when 
someone tries to log into the server, in one form or another, 
into an account or to the server itself----
    Mr. Carter. Okay. All right. What's an attack?
    Mr. Cooper. I'm sorry--with a username or a password that's 
not valid. So that could be a legitimate user who has mistyped 
their password or a legitimate user whose password has 
expired----
    Mr. Carter. Okay, I get that. Just define an attack for me.
    Mr. Cooper. Again, the word ``attack'' is colloquial.
    Mr. Carter. No, no. Describe what you would define 
``attack'' as.
    Mr. Cooper. Multiple failed log-in attempts, trying 
different usernames, in no specific pattern.
    Mr. Carter. Would you agree that most people describe 
``attack'' as much more than that?
    Mr. Cooper. I would agree with that.
    Mr. Carter. Okay.
    We've been told and we've discovered that Hillary Clinton's 
old phones were destroyed with a hammer--with a hammer. Were 
these phones connected to the private email server in question?
    Mr. Cooper. Yes. I described earlier that when Secretary 
Clinton would transition from one device to the next we'd take 
the old device, back it up, make sure all of the content was 
transferred onto the new device, linked with the server so any 
information that came from the server was on the new device; 
then, once that was completed, wiped the old device using the 
BlackBerry tool to do so; and then, on occasion, I would render 
them unusable.
    Mr. Carter. Why did you use that kind of method? It seems 
somewhat, if you will, barbaric. I mean, a hammer to a phone?
    Mr. Cooper. I think it's practical to not just throw a cold 
device into some sort of garbage receptacle where someone might 
pick it up out of curiosity and try to use it.
    Mr. Carter. Okay.
    You know, I mean, here we are--and with all due respect, 
sir, the definition of ``attack'' that you have and the 
definition of ``attack'' that I have and I think most people 
have are completely different.
    And then, you know, we're taking an old phone and 
destroying it with a hammer. Were you instructed to do that?
    Mr. Cooper. No, that was not something I was instructed to 
do.
    Mr. Carter. But you say that was normal procedure? Is this 
the way you do away with everybody's old phones?
    Mr. Cooper. I felt that that was a good practice at the 
time.
    Mr. Carter. Okay.
    Mr. Chairman, I've exceeded my time, and I yield.
    Chairman Chaffetz. I thank the gentleman.
    A few other questions as we conclude here. And, again, I 
give you great credit for being here and answering the 
questions. I do appreciate it.
    Why were there no backup images prior to June 23rd, 2013, 
made available to the FBI as part of their criminal 
investigation?
    Mr. Cooper. That's not something that I have knowledge or 
insight into.
    Chairman Chaffetz. But, I mean, you and Mr. Pagliano were 
running this ship here. So why were there no backup----
    Mr. Cooper. Technically, Mr. Pagliano handled that 
component of the server, and I was not managing the backup 
component.
    Chairman Chaffetz. The FBI report states that the so-called 
Pagliano server was backed up to an external hard drive between 
May of 2009 and June of 2011. Is that your understanding?
    Mr. Cooper. It is only my understanding from reading the 
same report that you have read.
    Chairman Chaffetz. The report further states that you would 
periodically delete the records maintained in the backup as 
disk space ran out. Is that correct?
    Mr. Cooper. Again, I was not the one responsible for those 
deletions. I'd refer you to Mr. Pagliano.
    Chairman Chaffetz. You didn't do any of those deletions?
    Mr. Cooper. No.
    Chairman Chaffetz. Was there any consideration to get a 
backup or external hard drive?
    Mr. Cooper. I believe at one point we upgraded the backup 
system that was attached to the server.
    Chairman Chaffetz. So, rather than backing this stuff up, 
you just went ahead and deleted it?
    Mr. Cooper. I was not the one responsible for or doing any 
deletions.
    Chairman Chaffetz. The FBI was unable to locate or procure 
any of the 13 mobile devices used by Secretary Clinton during 
her tenure. Are you aware of the location of any of these 
devices?
    Mr. Cooper. I am not aware of the location of any of those 
devices.
    Chairman Chaffetz. Secretary Clinton, did she ever use the 
computer that you set up for her?
    Mr. Cooper. The computers that were in their homes?
    Chairman Chaffetz. Yeah.
    Mr. Cooper. I can't say specifically whether she ever----
    Chairman Chaffetz. You never saw her? Did she know how to 
use the computer?
    Mr. Cooper. I don't know that she did or used those 
computers.
    Chairman Chaffetz. So you bought a computer, set up the 
computer, but you never saw her use it.
    Mr. Cooper. I don't believe I ever saw her use a computer.
    Chairman Chaffetz. And who had access to this computer?
    Mr. Cooper. She has household staff in each home, and I 
think her personal aides who would come to her house before or 
after she traveled, who would predominantly, to my knowledge, 
use those computers to print off, you know, clips and briefing 
materials.
    Chairman Chaffetz. And they could access that when it 
became a SCIF?
    Mr. Cooper. I don't know if that was the situation.
    Chairman Chaffetz. Well, you were there. I mean, you were 
in the household on a regular basis. Did you ever use it in the 
SCIF?
    Mr. Cooper. I don't remember using those computers once 
they were in the SCIF. There was a separate computer that was 
not in a SCIF in the home in Chappaqua which was regularly used 
for basic printing purposes.
    Chairman Chaffetz. And would it print her emails?
    Mr. Cooper. I can't say that it would--to know that it 
would print her emails.
    Chairman Chaffetz. I'm sorry, the what?
    Mr. Cooper. I don't know that it printed her emails.
    Chairman Chaffetz. Okay, but did you ever see the computer 
in her SCIF?
    Mr. Cooper. I have seen the SCIF, and I know the computer 
was in there, so it's hard to parse the times----
    Chairman Chaffetz. You've been in the SCIF?
    Mr. Cooper. --from those rooms, you know, which I spent 
time in over many years----
    Chairman Chaffetz. Right.
    Mr. Cooper. --prior to them becoming SCIFs.
    Chairman Chaffetz. You put a little qualifier on there. Are 
you telling me for 4 years you never went in that room?
    Mr. Cooper. I can't recall a specific occasion where I 
walked into that room, but there may have been an occasion. I 
can't----
    Chairman Chaffetz. So if you're talking to the Secretary 
and she walks in that room, you stopped at the door and----
    Mr. Cooper. I don't recall any situation of that type.
    Chairman Chaffetz. All right.
    Do you know how the SCIF was secured?
    Mr. Cooper. I was there when the SCIFs were set up, and I 
believe they had locks on the doors.
    Chairman Chaffetz. All right.
    What happened when the FBI showed up? Did they seize 
things? Were you there?
    Mr. Cooper. I'm sorry?
    Chairman Chaffetz. Were you there when the FBI came?
    Mr. Cooper. To?
    Chairman Chaffetz. To her home in New York.
    Mr. Cooper. No.
    Chairman Chaffetz. I'm not 100-percent certain that they 
came to her home in New York. Are you aware that they seized 
anything?
    Mr. Cooper. I'm not aware of that.
    Chairman Chaffetz. Okay.
    Let's go back one more time. The very same day that Hillary 
Clinton started her Senate confirmations is the very same day 
that you registered ClintonEmail.com and evidently set up the 
server, correct?
    Mr. Cooper. That was the day, I believe, that we registered 
ClintonEmail.com. I'm not sure that that's the day we set up 
the server.
    Chairman Chaffetz. Why that day? I mean, what was she doing 
3 days before that?
    Mr. Cooper. I have no recollection of where she or I were 3 
days before that.
    Chairman Chaffetz. Why not set up a Gmail account?
    Mr. Cooper. I think the consideration was that there was an 
existing server used by President Clinton's small group of 
staff that provided an option for her to maintain a personal 
email address using that system.
    Chairman Chaffetz. Did she have a personal email address 
before she got ClintonEmail.com?
    Mr. Cooper. She was using an AT&T BlackBerry address up to 
that point, which had limited ability to retain emails or view 
them in any other way besides on the BlackBerry.
    Chairman Chaffetz. Okay.
    We have some additional--do you still advise Teneo 
Holdings?
    Mr. Cooper. Yes, I still advise Teneo.
    Chairman Chaffetz. Okay.
    Listen, again, I want to reiterate how much I appreciate 
your being here, subjecting yourself to questions before 
Congress. It's not a comfortable thing. I'm sure it's not 
something you set out early in life to do. But, nevertheless, 
the committee did call you, and you are here, and you've 
answered--you're attempting to answer all of the questions. And 
for that, we're very much appreciative. That's the way the 
system is supposed to work. And so we're very grateful for 
that.
    Let me recognize before we recess here Mr. Cummings.
    Mr. Cummings. How's your business doing?
    Mr. Cooper. Okay.
    Mr. Cummings. I ask that because, you know, a lot of times 
we have these hearings, and a lot of people sometimes don't 
seem to realize that there's life after the hearing.
    And do you have a family? Do you have family?
    Mr. Cooper. I do not.
    Mr. Cummings. And then, you know, you--I, too, want to 
thank you for your testimony. I think you've been very 
straightforward. And I thank you for your cooperating with the 
FBI. And your testimony has been very helpful.
    And, you know, having practiced law for many years, it's 
painful, I'm sure, to have to pay legal bills, because it's 
expensive, and that's money that you could probably be doing 
some other things with. But, you know, I'm sorry you have to go 
through all of this. But the fact is that, you know, it's part 
of life. But I just want to thank you very much.
    And I can understand, based on your testimony, why Director 
Comey came to the conclusions that he did, particularly with 
regard to you. So thank you very much.
    Chairman Chaffetz. It is the intention of the chair to 
recess the hearing and reconvene at a later date. We'll provide 
ample notice of the date and time of the reconvening.
    The committee stands in recess.
    [Whereupon, at 12:36 p.m., the committee recessed, subject 
to the call of the chair.]





       EXAMINING PRESERVATION OF STATE DEPARTMENT FEDERAL RECORDS

                              ----------                              


                      Thursday, September 22, 2016

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:01 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Duncan, Jordan, Walberg, 
Gowdy, Farenthold, Lummis, Massie, Meadows, DeSantis, Walker, 
Blum, Hice, Carter, Palmer, Cummings, Norton, Lynch, Connolly, 
Lawrence, Plaskett, and DeSaulnier.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will reconvene. This is a continuation of our 
September 13 hearing on the ``Examining the Preservation of 
State Department Federal Records.''
    We are scheduled to have Mr. Pagliano attend this hearing. 
Due to his absence and his violation of a duly issued subpoena 
by the Committee on Oversight and Government Reform, we intend 
to adjourn this hearing and immediately convene a business 
meeting to reconsider a resolution and report holding Mr. 
Pagliano in contempt of Congress.
    Mr. Cummings, do you have a statement or ----
    Mr. Cummings. Yes, I have ----
    Chairman Chaffetz.--can we go ahead and adjourn?
    Mr. Cummings. I have a brief statement.
    Chairman Chaffetz. Sure.
    Mr. Cummings. Well, let me just say this. This is certainly 
no surprise to anyone. Mr. Pagliano's attorney told us last 
week he wouldn't be here. They told us it would be an abuse to 
force him to appear for a second time before Congress just to 
assert his Fifth Amendment rights. And they sent us another 
letter last night saying exactly the same thing.
    Let me read from one portion of the letter so there is no 
question about what is going on here. ``We have corresponded 
extensively with you and the committee's attorneys over the 
past two weeks on this subject. The facts have not changed.'' 
Continuing the quote, ``You and the committee have been told 
from the beginning that Mr. Pagliano will continue to assert 
his Fifth Amendment rights and will decline to answer any 
questions put to him by your committee.''
    The letter explains that he already asserted his Fifth 
Amendment rights before the Benghazi Select Committee, and he 
should not be forced to do so a second time.
    The letter continues, ``A subpoena issued by a 
congressional committee is required by law to serve a valid 
legislative purpose, and there is none here. The demand under 
the present circumstances that Mr. Pagliano again assert his 
constitutional rights in front of video cameras six weeks 
before the presidential election betrays a naked political 
agenda and furthers no valid legislative aim.''
    I ask unanimous consent that this full letter from Mr. 
Pagliano's attorney, sent last night to the committee, be 
entered into the official record.
    And I have nothing else on that, Mr. Chairman.
    Chairman Chaffetz. Without objection, so ordered.
    [The information follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
      
    Chairman Chaffetz. The hearing is adjourned.
    [Whereupon, at 10:04 a.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
